<html>
<title> - SCIENCE AND TECHNOLOGY ON A BUDGET: FINDING SMARTER APPROACHES TO SPUR INNOVATION, IMPOSE DISCIPLINE, DRIVE JOB CREATION, AND STRENGTHEN HOMELAND SECURITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
SCIENCE AND TECHNOLOGY ON A BUDGET: FINDING SMARTER APPROACHES TO SPUR 
   INNOVATION, IMPOSE DISCIPLINE, DRIVE JOB CREATION, AND STRENGTHEN 
                           HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON CYBERSECURITY,
                       INFRASTRUCTURE PROTECTION,
                       AND SECURITY TECHNOLOGIES

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 17, 2011

                               __________

                           Serial No. 112-57

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/





                  U.S. GOVERNMENT PRINTING OFFICE
74-533                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4225322d02213731362a272e326c212d2f6c">[email&#160;protected]</a>  
                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Janice Hahn, California
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                Daniel E. Lungren, California, Chairman
Michael T. McCaul, Texas             Yvette D. Clarke, New York
Tim Walberg, Michigan, Vice Chair    Laura Richardson, California
Patrick Meehan, Pennsylvania         Cedric L. Richmond, Louisiana
Billy Long, Missouri                 William R. Keating, Massachusetts
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Coley C. O'Brien, Staff Director
                    Alan Carroll, Subcommittee Clerk
                Vacancy, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies...................................................     1
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Prepared Statement.............................................     6
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California........................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5

                               Witnesses

Dr. Tara O'Toole, Under Secretary, Science and Technology 
  Directorate, U.S. Department of Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................    10
Mr. David C. Maurer, Director, Homeland Security and Justice 
  Issues, Government Accountability Office:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19

                                Appendix

Questions for Tara O'Toole From Honorable Yvette D. Clarke.......    33
Questions for Tara O'Toole From Honorable Laura Richardson.......    33
Questions for Tara O'Toole From Chairman Daniel E. Lungren.......    34
Questions for David C. Maurer From Chairman Peter T. King........    36


SCIENCE AND TECHNOLOGY ON A BUDGET: FINDING SMARTER APPROACHES TO SPUR 
   INNOVATION, IMPOSE DISCIPLINE, DRIVE JOB CREATION, AND STRENGTHEN 
                           HOMELAND SECURITY

                              ----------                              


                      Thursday, November 17, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Cybersecurity, Infrastructure Protection, 
                                 and Security Technologies,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 311, Cannon House Office Building, Hon. Daniel E. Lungren 
[Chairman of the subcommittee] presiding.
    Present: Representatives Lungren, Walberg, Thompson, and 
Richardson.
    Mr. Lungren. The Committee on Homeland Security 
Subcommittee on Cybersecurity, Infrastructure Protection, and 
Security Technologies will come to order.
    The subcommittee is meeting today to examine Science and 
Technology Directorate and its operations in the current fiscal 
climate. I want to begin this hearing by emphasizing my strong 
support for science and technology research and development. I 
think you will find that across both ends of the spectrum and 
both sides of the aisle.
    I believe scientific R&D generates innovation, cutting-edge 
technologies, and new products to drive economic development 
and job creation. R&D is also a critical element of the 
Department's mission to strengthen America's security and 
resiliency by providing knowledge products and innovative 
technology solutions to bolster our homeland defenses.
    The Homeland Security Act broadly authorizes the Under 
Secretary for Science and Technology to conduct research, 
development, testing, and evaluation activities for the 
Department, utilizing National labs and Federally-funded 
research and development centers.
    In reviewing the Department's use of these authorities in 
recent years, our Homeland Security Committee has determined 
that accountability and internal procedures essential to the 
Department's ability to perform its research and development 
mission were insufficient. This conclusion was informed by a 
2009 National Academy of Public Administration study that found 
that S&T strategic planning process and organizational 
structure created serious challenges across the agency.
    So as a result, S&T experienced management challenges to 
its multimillion-dollar technology, development, and 
acquisition efforts in support of the Department's many 
missions, including securing the border and screening airline 
passengers and baggages for explosives.
    Our committee had addressed these process and procedure 
deficiencies in last year's S&T authorization bill, H.R. 4842, 
and again in this year's DHS Authorization Act of 2012, H.R. 
3116.
    Our objective is to establish robust management in 
administrative processes for identifying, prioritizing, and 
funding R&D in order to enhance the long-term productivity and 
effectiveness of the Directorate. The act also codifies S&T's 
role in providing technical support throughout the acquisition 
life-cycle, requires a 5-year research and development plan to 
better inform expenditures for basic, advanced, and applied R&D 
activities, and provides flexible hiring authority so S&T can 
recruit skilled personnel into key scientific and engineering 
positions.
    In this new era of fiscal restraint, S&T must change the 
way it does business and convince Congress and other 
stakeholders that it knows how to be smarter and more efficient 
by realigning its priorities and investments for its customers. 
It accomplished this by developing a more robust technology to 
determine how to prioritize research products, fund those 
products, assess their progress, transition them into 
acquisition programs and, finally, deploy them to the field.
    In August 2010, Under Secretary O'Toole responded to these 
deficiencies by reorganizing her S&T Directorate to better 
align it with strategic goals, to allow for easier interaction 
among senior leadership, and to reduce the number of direct 
reports to the Secretary from 21 to 10. The realigned structure 
consolidates the S&T Directorate into four primary entities 
that address basic research through advanced technology, 
development, and transition.
    I also want to compliment the Under Secretary for 
instituting an annual portfolio assessment of your R&D programs 
to help identify those that are underperforming and find cost 
savings, as well as for pursuing approaches such as technology 
foraging that aim to improve S&T's return on investment and to 
shorten development time.
    When resources are constrained and unpredictable, it 
behooves S&T to adopt a more deliberate and targeted foraging 
effort, and I look forward to hearing how S&T will go about 
implementing.
    Under Secretary O'Toole, I am pleased that the Department 
has taken these low-cost steps to improve your Directorate, and 
I hope these changes quickly yield increased performance, 
productivity, and efficiency. We are aware of the current 
economic climate and the uncertainty that comes with it is 
forcing you to make tough decisions.
    A frugal man's approach to science and technology doesn't 
mean you have to compromise on performance. It means we all 
have been smarter about what we invest in and how we make it 
count. As Chairman of the Congressional oversight committee for 
this responsibility at DHS, we will monitor your progress to 
ensure our Nation has the Homeland Security S&T capability we 
all desire. Homeland Security investments in R&D should be 
nonpartisan, and I look forward to working with you and the 
administration to upgrade the critical security missions of the 
Department.
    Now I would recognize the gentlelady from California, who 
is pinch-hitting for the Ranking Minority Member, the 
gentlelady from New York.
    Ms. Richardson is recognized for any statement she might 
make.
    Ms. Richardson. Thank you, Chairman Lungren, for convening 
this hearing, and also Ranking Member Thompson for all of your 
support in this effort, both in the past and continuing today.
    S&T is an essential component of the Department's efforts, 
and I know many of us are eager here today to hear about the 
accomplishments and the priorities that have been set, 
especially since we concluded our authorization hearing last 
year.
    Dr. O'Toole, it is good to see you back on to this 
subcommittee, and Mr. Maurer--and I apologize if I butchered 
your name there a little bit. Thank you, thank you for giving 
us your perspective today, and we are pleased to have you here.
    In 2009, spurred by the findings of several reports, this 
committee and subcommittee initiated a comprehensive review, as 
Chairman Lungren laid out. Our purpose was to identify areas 
within the Directorate that could use a fresh set of eyes and 
additional oversight or modifications to legislative 
authorities.
    In doing so, we reviewed the Homeland Security Act and the 
Department's use of its authorities that Congress has vested in 
it.
    It might be said that with such a large and complex 
portfolio, the Directorate has found it difficult to craft a 
cohesive strategy, and we found the insularity that defines its 
culture was reflected in the lack of mechanisms necessary to 
assess its performance in a systematic way.
    Our analysis also suggested that the Department had not 
developed a clear risk-based methodology to determine what 
research projects to fund, how much to fund them, and how to 
evaluate the project's effectiveness and usefulness. Without 
clearly-defined metrics, it becomes problematic for Congress to 
justify increases in programmatic funding. I am anxious to hear 
any of the strides that you have been able to make in regards 
to these concerns that we have already laid out.
    Additionally, the Majority in the House has passed a 
proposed DHS budget, H.R. 2017, which radically cuts the 
Department's S&T budget from $827 million down to $398 million. 
Now, I believe in being frugal, but the question is really: Are 
these adequate resources to protect our homeland? When you 
consider S&T reductions are a part of the $1.1 billion 
reductions in the DHS overall budget, the proposed DHS budget 
is $1 billion lower than the full year 2011 funding level and 
$3 billion lower than the President requested.
    I have read that DHS officials say that the decrease in S&T 
budget will wipe out dozens of programs, stalling the 
development of technologies for our border protection, 
detection, and biohazards; hinder our progress of where we are 
trying to go with cargo screening, and leaving in doubt 
research on IED detection; affecting our ability to assess 
vulnerabilities for mass transit.
    Striving to do more with less is always a hallmark that we 
strive for, however, but doing that at the expense of failing 
to protect citizens and this Nation with programs that are 
backed, that cannot be fully funded, is of great concern.
    Our serious concerns are ones that I will ask you today in 
this hearing, is: What are the implications on the possible 
deliverables that the Directorate is now facing due to 
Congress' appropriation priorities? This committee needs a 
realistic assessment on the record of those implications.
    Thank you, Mr. Chairman, and I yield back the balance of my 
time.
    Mr. Lungren. The Chairman will now recognize the Ranking 
Member of the full committee, the gentleman from Mississippi, 
Mr. Thompson, for any statement he might make.
    Mr. Thompson. Thank you very much, Mr. Chairman, and, 
again, I thank you for holding this hearing on the Science and 
Technology Directorate. I also join you in welcoming Under 
Secretary O'Toole and Mr. Maurer and look forward to their 
testimony.
    Many of my concerns, however, about the Science and 
Technology Directorate stem from my work on the committee last 
year. During my Chairmanship, we all worked hard to pass a 
science and technology authorization bill which sought to 
provide much-needed direction for the research and development 
efforts of the Department. Today we find ourselves at a new 
crossroads, for several reasons.
    First, I am concerned that the Department does not have 
adequate training that would allow program managers to help 
components identify capability gaps and write technical 
requirements. I hope to learn how we can keep essential 
personnel and train them in light of these severe budget cuts.
    Second, it is still unclear to me whether there is a system 
to monitor milestones and collect feedback from customers and 
end-users on the effectiveness of the services delivered by the 
Directorate. These milestones and feedback would allow our 
committee to offer an objective assessment of the successes and 
failures of agencies. Without effective measurement tools, I 
question how S&T will be able to continue to develop security 
solutions.
    Third, I cannot tell you how many times a company, mainly 
small businesses, comes to me and complains about how difficult 
it is to work with S&T.
    I hope our witnesses have some evidence to share on how 
those relationships have been improved and the potential impact 
of budget cuts on our outreach efforts, particularly in SBIR 
for small business at the Department.
    Finally, I believe we are at a new crossroads because the 
Directorate will be challenged to prioritize or eliminate 
programs that protect the American people today. With the 
support of many of my Republican colleagues, extreme budget 
cuts have now impacted the important work the Department has 
been challenged to complete.
    The fiscal year 2012 funding levels for the Department that 
passed in the House, with no support from Democratic Members of 
this panel, are harsh in anyone's reckoning. It manages to cut 
S&T's budget 52 percent, from $827 million to $398 million. 
These cuts have consequences, because if you have less money 
for science and technology, you can only do less scientific and 
technological research. On the surface, the S&T budget at the 
level of the proposed cuts will eliminate over 1,400 science 
and engineering jobs, wipe out dozens of programs, stall the 
development of technologies for border protection, detection of 
biohazards, cargo screening, and limit research in the domestic 
IED detection that will leave mass transit vulnerable to 
attack.
    It is almost impossible to believe. Mr. Chairman, I hope 
the committee will take these matters seriously as we learn how 
the Directorate will carry out its strategic plan, management 
directives, and operational programs going forward.
    With that, I thank you for allowing me to give my opening 
statement, and I yield back.
    [The statement of Ranking Member Thompson follows:]

             Statement of Ranking Member Bennie G. Thompson
                           November 17, 2011

    Good Morning, Mr. Chairman, and thank you for holding this hearing 
on the Science and Technology Directorate.
    I join you in welcoming Under Secretary O'Toole and Mr. Maurer and 
look forward to their testimony.
    Many of my concerns about the Science and Technology Directorate 
stem from our work in the committee last year.
    During my Chairmanship, we all worked hard to pass a Science and 
Technology authorization bill which sought to provide much-needed 
direction for the research and development efforts of the Department.
    Today, we find ourselves at a new crossroads for several reasons.
    First, I am concerned that the Department does not have adequate 
training that would allow program managers to help components identify 
capability gaps and write technical requirements.
    I hope to learn how we can keep essential personnel and train them 
in light of severe budget cuts.
    Second, it is still unclear to me whether there is a system to 
monitor research milestones and collect feedback from customers and 
end-users on the effectiveness of the services delivered by the 
directorate.
    These milestones and feedback would allow this committee to offer 
an objective assessment of the successes and failures of the agency.
    Without objective measurement tools, I question how S&T will be 
able to continue to develop security solutions.
    Third, I cannot tell you how many times a company, mainly small 
businesses, comes to me and complains about how difficult it is to work 
with S&T.
    I hope our witnesses have some evidence to share on how those 
relationships have been improved, and the potential impact of budget 
cuts on our outreach efforts, particularly in SBIR for small business 
at the Department.
    Finally, I believe we are at a new crossroads because the 
Directorate will be challenged to prioritize or eliminate programs that 
protect the American people today.
    With the support of many of my Republican colleagues, extreme 
budget cuts now impact the important work the Department has been 
challenged to complete.
    The fiscal year 2012 funding levels for the Department that passed 
in the House--with no support from the Democratic Members of this 
panel--are harsh by anyone's reckoning.
    The measure cuts the S&T budget by 52 percent--from $827 million to 
$398 million.
    The cuts will have consequences, because if you have less money for 
science and technology, you can only do less scientific and 
technological research.
    On the surface, S&T's budget at the level of the proposed cuts 
will:
  <bullet> eliminate 1,400 science and engineering jobs;
  <bullet> wipe out dozens of programs;
  <bullet> stall the development of technologies for border protection, 
        detection of bio-hazards, cargo screening; and
  <bullet> limit research into domestic IED detection that will leave 
        mass transit vulnerable to attacks.
    It is almost impossible to believe.
    Mr. Chairman, I hope the committee will take these matters 
seriously as we learn how the directorate will carry out its strategic 
plans, management directives, and operational programs going forward.
    Thank you, and I yield back.

    Mr. Lungren. I thank the Ranking Member.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Clarke of New York 
follows:]

              Statement of Ranking Member Yvette D. Clarke
                           november 17, 2011

    Thank you Chairman Lungren for convening this hearing on the 
Science and Technology Directorate. S&T is an essential component of 
the Department's efforts, and I know many of us are eager to hear about 
accomplishments and priorities at the directorate, especially since we 
concluded our authorization hearings last year.
    Dr. O'Toole, it is good to see you back before this subcommittee, 
and Mr. Maurer, thank you for agreeing to give us your perspective, and 
we are pleased to have you here today.
    In 2009, spurred by the findings of several reports, this committee 
and subcommittee initiated a comprehensive review of the Directorate. 
Our purpose was to identify areas within the Directorate that could use 
a fresh set of eyes and additional oversight or modifications to 
legislative authorities. In doing so, we reviewed the Homeland Security 
Act and the Department's use of the authorities the Congress has vested 
in it.
    With such a large and complex portfolio, the Directorate has found 
it difficult to craft a cohesive strategy, and we found that the 
insularity that defines its culture was reflected in the lack of 
mechanisms necessary to assess its performance in a systematic way.
    Our analysis suggested that the Department had not developed a 
clear risk-based methodology to determine what research projects to 
fund, how much to fund, and how to evaluate a project's effectiveness 
or usefulness. Without clearly-defined metrics, it becomes problematic 
for Congress to justify increases in programmatic funding.
    In my opinion, the directorate will never achieve success unless 
research rules and metrics are more fully established, and I am anxious 
to hear of any strides that the Under Secretary may have made in these 
areas of concern.
    However, we have additional challenges facing the directorate 
today.
    Earlier this year, the Majority in the House passed a proposed DHS 
budget--H.R. 2017--which radically cuts the Department's S&T budget 
from $827 million to $398 million, and the S&T reductions are part of a 
$1.1 billion reduction in DHS's overall budget. The proposed DHS budget 
is $1 billion lower than the fiscal year 2011 funding level, and $3 
billion lower than the President's request.
    I have read that DHS officials say the decrease in S&T's budget 
will wipe out dozens of programs, stalling the development of 
technologies for border protection, detection of bio-hazards, cargo 
screening; and leaving in doubt research on IED detection, affecting 
our ability to assess vulnerabilities for mass transit.
    Striving to do more with less is always the hallmark of an 
efficiently run effort--of any type--but trying to protect our citizens 
and Nation with programs that are backed by underfunded and depleted 
science and technology research assets is another matter. There are 
serious concerns about what the directorate would have to give up as a 
result of the budget voted for by the Majority.
    I look forward to the testimony of the Under Secretary and Mr. 
Maurer, especially to hear what strides she has made since our efforts 
last year, and I expect we'll have questions on how she will work to 
keep the Directorate moving forward during these challenging times. 
Thank you Mr. Chairman, and I yield back.

    Mr. Lungren. We are pleased to have two very distinguished 
witnesses before us today on this important topic.
    Dr. Tara O'Toole was sworn in as the Under Secretary of 
Science and Technology Directorate at the Department of 
Homeland Security in November 2009. She is internationally 
known for her work in biosecurity and on health and safety 
issues relating to the U.S. nuclear weapons complex.
    Prior to serving at S&T, Dr. O'Toole was CEO and Director 
of the Center for Biosecurity at the University of Pittsburgh 
Medical Center, and Professor of Medicine and of Public Health 
at the University of Pittsburgh from 2003 to 2009.
    Prior to founding the University of Pittsburgh Medical 
Center, Dr. O'Toole was one of the original members of the 
Johns Hopkins Center for Civilian Biodefense Strategy, serving 
as its director from 2001 to 2003. At both centers, she created 
independent organizations dedicated to improving the country's 
resilience to major biological threats.
    From 1993 to 1997, Dr. O'Toole served as the Assistant 
Secretary of Energy for Environment, Safety, and Health. In 
this position, she is the principal adviser to the Secretary of 
Energy on environmental protection, on the health and safety of 
the approximately 100,000 workers in the U.S. nuclear weapons 
complex in the Department of Energy laboratories.
    Dr. David Maurer is a Director in the U.S. Government 
Accountability Office's Homeland Security and Justice team, 
where he leads GAO's work reviewing DHS' and DOJ's management 
issues. His recent work in these areas includes DHS management 
integration, the Quadrennial Homeland Security Review, Secret 
Service financial management, DOJ, grant management, the 
Federal prison system, and an assessment of technologies for 
directing explosives in the passenger rail environment.
    I want to thank both of you for being here today. As you 
both know, having testified before, your prepared remarks will 
be included in the record in its entirety. We ask that you 
attempt to summarize that within 5 minutes, and then we will 
have questions from the panel.
    So the Chairman recognizes Dr. O'Toole.

    STATEMENT OF TARA O'TOOLE, UNDER SECRETARY, SCIENCE AND 
  TECHNOLOGY DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Dr. O'Toole. Thank you, Mr. Chairman, distinguished Members 
of the committee. I am very pleased to be here today to talk 
about the progress made in the Science and Technology 
Directorate.
    Our mission, as you noted, Mr. Chairman, is to strengthen 
America's security and resiliency by providing innovative 
technologies and technologic analyses and assessments, 
knowledge products in other words, for the Homeland Security 
enterprise.
    Since I became Under Secretary, the Directorate has 
undertaken a number of initiatives to enable us to work smarter 
and increase taxpayers' return on investment.
    I believe we have answered and closed virtually all of the 
recommendations made by the NAPA committee in 2009, which I 
have closely studied. These initiatives aim to further our 
three top goals, which are: First of all, to rapidly transition 
successful technologies to use in the field; second, to 
identify and meet, again rapidly, the top needs of the U.S. 
first responder communities; and, third, to leverage the 
technical and scientific capacity of S&T scientists and 
engineers in ways that assist DHS components in their efforts 
to improve operational effectiveness, gain efficiencies, and 
carry out the selection and acquisition of new technologies.
    One of the first initiatives of my tenure was the adoption 
of a portfolio review process that is used by other very 
successful Governmental and private-sector labs, including ERDC 
in Mississippi. Every project in S&T now undergoes an R&D 
portfolio review. Each project is evaluated by a panel of 
outside experts, including representatives from the components, 
and scored against specific criteria to ensure that we are 
investing in projects that have high impact, that are 
technically sound, that are desired by and are aligned with our 
customers' priorities, are appropriately funded, and are 
progressing in the research queue adequately.
    It was clear from the first portfolio review--we have done 
three of these now--that S&T was investing in far too many 
projects given our limited funding. So even when we had a 
successful prototype developed, very often it didn't go 
anywhere either because S&T didn't have the money to do pilot 
field tests and training, or because the components' priorities 
had shifted where they didn't have money or were prepared to 
move it into an acquisition phase. So we have now reduced the 
number of projects in our portfolio from 283 in 2010 to 158 
today, a decrease of nearly 60 percent. I would point out this 
is before the fiscal year 2012 budget cuts hit.
    This reduction in projects ensures that there is a clear 
focus to what we are doing, we have strategies worked out with 
each of the components as to what we are going to pursue. It 
also ensures that we have adequate resources on each project to 
ensure that they are funded through successful transition to 
use, whether that is from commercial adoption or adoption by 
the components.
    The portfolio scoring scheme also ensures that we are 
pursuing the right mix of projects, based, again, on intense 
discussions with the component leadership and the operators. As 
a result of these and other changes, the number of projects in 
our portfolio, now deemed to be both high-impact and highly 
feasible--that is, likely to succeed--has almost doubled in the 
past 2 years from 38 to 63 percent.
    This is, in the reckoning of the independent contractor who 
runs this process, a benchmark, a very high level of 
performance comparing to all of the other 50 or so R&D labs who 
used this particular portfolio review process.
    Another initiative is our Apex projects, which were 
designed to enhance our contributions to strategic high-level 
problems identified by component leaders. They demonstrate a 
new model of working based upon multidisciplinary teams, very 
strong collaborative partnerships with the operators, and top-
level commitment to the projects.
    We have two of these underway. One is for the U.S. Secret 
Service and aims to strengthen their remote protective 
operations. It is proving very successful. Unfortunately, much 
of it is classified. A second one, called the Secure Transit 
Corridor, with CBT, which aims essentially to build an easy 
pass, a green lane that allows us to ship goods from Canada 
through the United States to Mexico and back very rapidly.
    A key lesson that we learned in the Apex projects was that 
forging a true partnership between the technical team and the 
operators is really a key to success. An innovation throughout 
the world demonstrates this. If you have a deep, very clear 
understanding of the problem to be solved, which is best gotten 
by the people who have the problem--the operators--and a very 
lucid and comprehensive understanding of the technical options 
for solutions, that is when you get to success.
    So we have tried to repeat that lesson in all of our work. 
In the future, S&T will be much more likely to invest our 
resources in an area where the operators--that is, components 
and first responder communities--are willing to actively 
collaborate with us from the beginning to the end of the 
project.
    We have also adopted two approaches to increasing return on 
investment of our R&D initiatives. These two initiatives, 
referred to as technology foraging and collaboration with 
others--tech foraging refers to a very complex process of 
scanning the entire horizon of research and development going 
on across the global R&D community, including other Federal 
agencies, the private sector, universities, and international 
partners.
    The point is to identify technologies which could be 
adopted or adapted to new environmental conditions, new 
purposes or at new scales, and applied to DHS needs. It 
leverages investments made by others and can also rapidly--it 
can increase the rapidity with which it can transfer new 
solutions to use in the field.
    Let me just note two examples. One is the blackboard 
cover--I am sorry, the backboard cover. The backboards are the 
devices that emergency medical responders use to carry people 
out of an accident scene. A problem, which was identified by a 
first responder on our website, is that they get messy and 
contaminated with blood and other body fluids and there is no 
really fast, assured way to clean them off.
    We went out and we found that Tyvex fibers, the stuff that 
you wrap houses in, are impermeable, cheap, and light. For 
$60,000, in 8 months we had a product in the field, which is a 
very disposable, lightweight, cheap cover that is now in wide 
use.
    A second example of tech foraging involves the repurposing 
of NOAA weather radars to track unidentified vessels entering 
our ports. We discovered that there is an existing radar 
system, which can be reprogrammed using software that allows a 
different processing of the radar signals so that we can ID and 
track boats that do not have inherent tracking and tagging 
systems, and we are doing this now with the U.S. Coast Guard. 
Very low-cost, again, and very rapid creation of a new 
capability for DHS.
    The second initiative, which is quite important, is 
collaboration with others, which refers to joining as partners 
with other R&D organizations, whether the Federal Government, 
agencies, or universities, or the private sector, to create new 
technologies of use to DHS. There are many examples of this in 
my testimony, and I would be happy to elaborate further.
    We have many very strong partnerships with the private 
sector, as evidenced by the fact that they are sharing the cost 
of R&D in many instances, and we have taken a lot of steps to 
make it easier for them to work with the S&T Directorate, 
although I must say the private sector is always amazed by how 
difficult it is to work with the U.S. Government, no matter 
what we do.
    I would like to turn now in closing just to make a few 
observations about the proposed budget cuts. I think we have 
implemented smart, disciplined, cost-effective measures in our 
R&D program, and we have offered invaluable assistance and 
acquisition procurements to DHS.
    The fiscal year 2012 House funding level for the 
Directorate's R&D account now, not taking out management and 
administration, was $398 million, as was noted. This is a 
record low investment for R&D in Homeland Security.
    Of this amount, more than half must be spent to maintain 
laboratory operations and on other mandatory spending such as 
the SAFETY Act, university programs, and so forth. This leaves 
$106 million for discretionary R&D, and an 80 percent cut in 
R&D compared to our fiscal year 2010 levels.
    Mr. Lungren. Dr. O'Toole, I don't want to interrupt you on 
this subject, but you have gone into 10 minutes now in your 
opening statement.
    Dr. O'Toole. One sentence?
    Mr. Lungren. Yes, sure.
    Dr. O'Toole. Okay. Half of this amount would be needed to 
pay existing commitments and shut down projects we could no 
longer afford. In the end, with the fiscal year 2012 House 
budget, we are left with $45 million to support all R&D 
investments for all of DHS and all of the first responders. 
This would be a very dire set of circumstances for DHS and 
would leave us, essentially, funding only R&D and aviation 
security and nothing else.
    Thank you, Mr. Chairman.
    Mr. Lungren. Thank you very much.
    [The prepared statement of Dr. O'Toole follows:]

                   Prepared Statement of Tara O'Toole
                           November 17, 2011

                              INTRODUCTION

    Good morning Chairman Lungren, Ranking Member Clarke, and 
distinguished Members of the committee. Thank you for the opportunity 
to testify before you today on behalf of the Department of Homeland 
Security (DHS) Science and Technology Directorate (S&T). My testimony 
will describe the Directorate's strategic direction and top priorities 
of our directorate while highlighting some of our successes in support 
of the third-largest Federal agency in a time of austere budgets. Over 
the past 2 years, the Directorate has built on the achievements of the 
initial years of DHS to create an organization with a growing ability 
to help the Homeland Security Enterprise achieve its missions. S&T is 
building stronger partnerships with first responders and DHS Components 
to gain a deeper understanding of their top needs and operational 
environments. We have focused our technology development process to 
rapidly deliver technologies to use in the field. We have expanded the 
application of the technical talent of S&T's engineers and scientists 
to include assessments of operational problems and acquisition 
requirements. We have embarked on an ambitious effort to make the best 
possible use of taxpayers' dollars through identifying technology 
investments made by others which might meet homeland security needs 
through collaborations with others in the Federal Government, 
universities, the private sector, and abroad.

 MISSION OF THE DHS S&T DIRECTORATE IS BROAD, VARIED, AND SERVES MANY 
                                PARTNERS

    The mission of DHS S&T is to strengthen America's security and 
resiliency by providing knowledge products and innovative technology 
solutions for the Homeland Security Enterprise. Congress created the 
S&T Directorate as part of the Homeland Security Act of 2002, to 
``conduct basic and applied research, development, demonstration, 
testing, and evaluation activities relevant to any or all elements of 
the Department.''\1\ S&T also has a statutory responsibility to 
transfer useful technologies and information to first responder 
communities, State, and local governments, and to the private sector.
---------------------------------------------------------------------------
    \1\ 6 U.S.C. Sec. 182(4).
---------------------------------------------------------------------------
    In the past 8 years, S&T has undergone many changes and continues 
to evolve. The extraordinary breadth and diversity of DHS's missions 
requires S&T to address a wide range of programs including Components' 
near-term needs for new operational capabilities and improved 
operational effectiveness, efficiency, and safety. S&T also has 
responsibilities related to understanding and creating solutions to 
biological and chemical threats, and to conducting the research and 
development (R&D) required to meet homeland cybersecurity needs. 
Investments in near-term, incremental solutions must be balanced 
against investments in potentially game-changing technologies that will 
take longer to mature. DHS S&T's work is usually identified with 
technology development, but equally as important are the Directorate's 
contributions to homeland security in the form of analyses or 
``knowledge products.'' These include analyses of alternative 
technological options; assessments of complex issues such as the 
relative risk of different biological or chemical threat agents; 
operational testing and evaluation of technologies proposed for 
acquisition; and the creation of consensus standards which enable cost-
effective progress across many fields. Additionally, over the past 
year, S&T has begun a major strategic effort, in collaboration with the 
Under Secretary for Management, to improve DHS acquisition processes.

     INVESTING S&T'S RESOURCES: MAXIMIZING BENEFIT, BALANCING RISK

    S&T fully recognizes the need to be a responsible steward of 
taxpayers' dollars and to clearly demonstrate the value the S&T 
Directorate brings to the Homeland Security Enterprise (HSE). This is 
particularly important in R&D endeavors, where the time between initial 
research investments and useable products is typically measured in 
years or even decades, and where risk--and the possibility of failure--
is necessarily part of the picture. New technological capabilities and 
the design of sound analytical processes and acquisition decisions 
offer solutions to many of the challenges confronting the Department 
and are also essential, potentially powerful cost-saving tools. 
Moreover, the scope of the HSE's need for technologies and technical 
assistance requires that we make careful judgments about where to 
invest S&T's limited resources. My predecessor as Under Secretary 
established Integrated Product Teams consisting of representatives from 
DHS Components, whose purpose was to select and rank ``capability 
gaps'' which S&T then tried to address through technology development. 
This was an important step in linking S&T activities to Components' 
needs, but the selected projects sometimes failed to reflect the 
strategic priorities of the leadership. In addition, some projects 
yielded successful prototypes but failed to transition to actual use in 
the field, sometimes because research efforts in S&T were not paired 
with Component acquisition programs, sometimes because Components' 
priorities had shifted, and sometimes because there were no funds to 
support realistic pilots and training programs. Due to these 
shortcomings, S&T has established the goal of transitioning R&D 
products to use as a top priority. To achieve this end, we made several 
changes to the process for selecting R&D projects.

On-going Review of the R&D Portfolio
    All individual R&D projects, including proposed ``new starts,'' 
undergo evaluation using a ``portfolio review'' process to ensure that 
they are supported by operational partners (i.e. one or more DHS 
Component or First Responder communities), are technically sound, have 
the potential to make a meaningful mission impact, and are progressing 
adequately. Each project is judged against specific metrics, determined 
by S&T with input from the Components, designed to address elements 
essential to programmatic success in the context of DHS's Quadrennial 
Homeland Security Review (QHSR) missions. These metrics assess the 
project against six strategic imperatives, namely:
  <bullet> Impact.--Is our portfolio making a significant impact on our 
        customer's mission?
  <bullet> Transition.--Are we transitioning relevant products to the 
        field?
  <bullet> Technical Positioning.--Is our investment positioning the 
        organization for the future?
  <bullet> Customer Alignment.--Are our projects aligned with well-
        understood customer requirements?
  <bullet> Customer Involvement.--Do we have the appropriate level of 
        customer interaction?
  <bullet> Innovation.--Are we sufficiently innovative in the way we 
        approach our challenges?
    Measuring all of our projects against this framework provides a 
transparent and ``shareable'' view of all R&D within S&T; enables more 
strategic, longer-term budget decisions; ensures efficient delivery to 
the component or end-user; and nurtures effective communication 
throughout the process. This particular review model has been used by 
both Federal and private R&D organizations, including the prize-winning 
Army Engineering, Research, and Development Laboratory in Mississippi.
    A major observation stemming from the first review of the R&D 
portfolio in 2009 was that S&T was pursuing a much larger number of 
projects than could be adequately supported within our budget. Many 
projects were failing or languishing for years because they lacked the 
resources needed to succeed. Thus we decided to reduce the number of 
projects, instill annual reviews of budget adequacy and progress, and 
fund each selected project through to ``use in the field'', whether it 
was transition to a commercial venture or a DHS pilot operation. This 
strategy resulted in some projects receiving more funds, while others 
were eliminated or significantly reformulated. Additionally, we placed 
a greater emphasis on integration of projects with the DHS Component 
partners' operational needs and acquisition planning cycles because 
even the highest-impact project is of little utility without the 
Components' ability to procure it. We have already begun to see the 
fruit of these decisions.

Apex Projects Demonstrate the Importance of Strong Partnerships Between 
        S&T and Operators
    Apex projects are intended to solve problems of strategic 
operational importance identified by a Component leader. The Apex model 
is designed to demonstrate a new framework for working with Components, 
based on top-level commitment to the project, collaborative 
partnerships, and multidisciplinary teams. Each Apex project is 
codified in a signed charter agreement between the head of a DHS 
Component and the Under Secretary for S&T. Together, we approve the 
project's goals and approach, providing a leadership imprimatur which 
energizes both S&T and the partner organization. The S&T team is then 
mirrored by an equally able, multidisciplinary team from the partner 
Component. The first Apex effort focused on improving the remote 
protective operations of the U.S. Secret Service (USSS) and has proven 
very successful. Another Apex initiative, which began in March 2011, is 
a partnership with U.S. Customs and Border Protection to develop a 
secure transit corridor for goods shipped between Mexico, the United 
States, and Canada.
    A key lesson of the Apex experience is that forging a true 
partnership between the technical team and the operators is essential 
to success. Going forward, S&T will be more likely to invest its 
resources in areas where operators--whether they are DHS Components or 
first responders--are willing to actively collaborate on the project. 
Innovation requires a deep, precise understanding of the problem to be 
solved. This requires insights from operators, who best know the needs 
and constraints of the operational reality, and technical experts who 
have a grasp of the range of available solutions and how to analyze 
possible trade-offs. Equally as important is the imperative to 
integrate new technologies or analytical approaches into the whole 
``system'' that makes up the operational reality. For example, 
technologies which are extremely expensive, require constant care and 
feeding, or intensive training are not suitable to many DHS operations.

S&T Resource Allocation Strategy: Creating a Balanced, High-impact R&D 
        Portfolio
    To better support the entire Homeland Security Enterprise, we are 
developing an S&T Resource Allocation Strategy (STRAS) which reflects 
lessons learned from our Apex experience and reviews of our R&D 
portfolio as well as dialogue among representatives from the 
Components, the first responder community, and S&T.
    STRAS is highly collaborative and based on focused interactions 
with partner organizations coupled with a rigorous examination of the 
problems at hand. STRAS begins with an understanding of S&T's current 
research and development efforts on behalf of Components as well as on-
going internal, Component-sponsored R&D efforts. The systems analysis 
explicitly maps how the operational process functions and highlights 
potential capability gaps. Based on this systems analysis and 
understanding of the on-going R&D efforts, a strategic plan will be 
jointly developed and agreed to by the Component and S&T. A formal 
written agreement will codify the joint effort; periodic updates will 
ensure that projects are progressing and will ultimately lead to 
fielding of an operational capability, including, if appropriate, the 
transition of research products and prototype technologies into field 
pilots and acquisition plans. This strategic approach to S&T resourcing 
allows for development of a managed, balanced portfolio, but retains 
the inherent flexibility to support ``out-of-cycle'' or emergent 
Component requests for assistance.
    S&T uses a modified version of the STRAS process to identify 
efforts for the first responder community. S&T's First Responder Group, 
which was created during the 2010 strategic realignment, is entirely 
focused on connecting with and addressing the needs of first 
responders. We use a variety of Nation-wide outreach methods to examine 
and identify appropriate local, State, and Federal roles and 
responsibilities for developing response capabilities. These groups 
further ensure that technology, training, and policy investments by S&T 
and the Federal Emergency Management Agency are aligned with these 
capabilities and best support the priorities of the first response 
community. Key partners such as the InterAgency Board for Equipment 
Standardization and Interoperability and S&T's First Responder Resource 
Group help us capture the diverse voice of the emergency response 
community's needs and goals for policy, operational doctrine, and 
technology--with the ultimate goal of meeting the challenges of 
catastrophic mission response. S&T analyzes these practitioner-
identified gaps to select projects for investment. Multiple 
jurisdictions across the country have partnered with S&T to host pilots 
and operational demonstrations of research products to field 
commercially viable, operationally tested technologies.

Beyond R&D: Using S&T's Technical Expertise to Provide Analytical 
        Support to DHS
    S&T's work extends beyond technology development. Component support 
also includes operational analysis, requirements generation, test and 
evaluation, and acquisition support. Through the leadership of our 
Acquisition Support and Operations Analysis (ASOA) group, S&T has been 
formally incorporated into DHS's new integrated investment life-cycle--
we will be working on the ``front end'' of the acquisition process 
assisting in the development of technically specific and feasible 
requirements. Getting requirements right on the ``front end'' greatly 
improves the odds of a successful transition at the end of the program. 
S&T provides systems engineering support throughout the ``middle'' of 
the investment life-cycle to assist Components with items such as risk 
management and ConOps development.
    Additionally, S&T has a statutory responsibility on the ``back 
end'' of acquisition in testing and evaluation. S&T has been at the 
forefront of improving the Department's overall acquisition process 
through the establishment of DHS' operational test and evaluation 
(OT&E) process. The OT&E process ensures that programs that come before 
the Acquisition Review Board have been thoroughly and appropriately 
vetted. This is the final step before the Department makes significant 
investment into final production and fielding of the acquired system 
ensures that the system meets its documented operational requirements 
and provides the required capability.

A MODEL FOR HIGH IMPACT: LEVERAGING INVESTMENTS BY OTHERS AND CREATING 
                       PRODUCTIVE COLLABORATIONS

    Wherever possible, S&T attempts to identify R&D activities in which 
others have already invested and then adopt, adapt, or further develop 
these investments to satisfy the needs of the HSE. The austere budget 
realities facing the United States and our allies will likely encourage 
collaboration as organizations seek to augment their own R&D 
investments with outside resources.

Technology Foraging: Higher ROI, Faster Transitions
    S&T is committed to getting as high of a return on investment (ROI) 
of resources as possible. To this end, and to meet our goal of rapidly 
delivering products to use, we are establishing ``technology foraging'' 
as part of every technology development project. Technology foraging 
refers to a complex process of scanning the horizon for technologies 
that are already in use or being developed, and adopting these 
technologies for new purposes, new environmental conditions, or at new 
scales. Technology foraging leverages the work being done by industry, 
in other Federal agencies, at universities, and by our international 
partners, against possible applications to DHS's needs. It is an 
extremely challenging task because of the vast and continuously 
shifting body of R&D unfolding in public and private sectors around the 
world. However, when done correctly, technology foraging can have a 
large impact on S&T's efficiency and effectiveness. S&T is moving to a 
more disciplined and comprehensive approach to technology foraging 
which requires all project managers to review investments by others in 
technologies we might adapt or adopt.
    For example, the U.S. Coast Guard (USCG) has identified a need to 
be able to track small vessels approaching a seaport. While most large 
vessels have communication and tracking devices, along with tagging 
systems for identification, many small vessels, including those that 
may be used for illicit activities, called ``dark boats'' do not. S&T, 
in partnership with the National Oceanic and Atmospheric Administration 
(NOAA) and USCG, has developed software that relies on currently 
deployed coastal NOAA weather radar systems to process the radar signal 
differently, enabling the USCG to identify and track small vessels.

Private Sector Partnerships: Finding and Importing Good Ideas
    Partnering with the private sector is one of S&T's highest 
priorities. Small business is an important engine of innovation and job 
creation and S&T utilizes a variety of approaches to engage the private 
sector. Under my tenure, S&T established the position of Chief 
Commercialization Officer, which leads engagement with industry. As a 
result, S&T's coordinated outreach to the private sector has grown 
considerably. In 2010, S&T interacted with over 6,500 companies 
informing them on how to work with DHS and soliciting their ideas. 
Furthermore, better integration and promotion of our research efforts 
with the private sector has resulted in companies investing their own 
internal research and development funds to bring S&T-developed 
technology to the market. One example is Honeywell, Inc.'s investment 
in S&T's Geo-spatial Location Accountability and Navigation System for 
Emergency Responders (GLANSER), a tool which allows incident commanders 
to locate and track personnel inside enclosed areas. Honeywell, Inc. 
committed over 25 percent of the project's total cost to develop and 
commercialize GLANSER. Also, Raytheon, Inc. invested 40 percent of the 
total costs for the Controlled Impact Rescue Tool, a technology that 
enables first responders to quickly cut through cement to rescue people 
from collapsed structures.
    S&T's Small Business Innovation Research (SBIR) Program actively 
works to develop technology solutions to homeland security issues that 
are innovative and accelerate transition into the marketplace. Since 
its inception in 2004, 316 companies in 43 States received S&T SBIR 
Phase I awards to demonstrate concept feasibility and one-third of 
these received Phase II awards, which often culminate in a prototype. 
Our SBIR program has resulted in 26 patents with 11 more in process. 
Additionally, 17 products are on the market, including 10 commercial or 
open-source cybersecurity-related products. Not only is S&T finding 
solutions to homeland security needs, but we are creating new jobs. 
Fifty-six companies responded to our July 2010 survey and reported that 
359 net jobs have been created through SBIR funding.

Collaboration with Other Federal Agencies
    DHS S&T staff have been highly active participants and leaders in 
numerous, on-going Federal Interagency efforts at both policy and 
programmatic levels. I co-chair the National Science and Technology 
Council's Committee on Homeland and National Security, along with Mr. 
Zack Lemnios of the Department of Defense (DoD) and Mr. Phil Coyle, 
Associate Director for National Security and International Affairs of 
the White House Office of Science and Technology Policy. This committee 
has a comprehensive membership involving key Executive branch agencies 
such as DoD, the Department of Energy, the Department of Health and 
Human Services (HHS), the Department of Justice, and the Environmental 
Protection Agency (EPA) and many others. Coordination on this committee 
enables S&T to form and maintain relationships with other science and 
technology organizations that can be translated into collaborative 
programs that maximize and leverage available expertise and resources. 
Additionally, our scientists serve on 32 Committees and Working Groups 
across the Interagency. These Working Groups and Committees examine the 
full range of homeland security issues, such as chemical, biological, 
radiological/nuclear and explosives (CBRNE) detection and recovery, 
infrastructure protection, and homeland security policy.
    S&T collaboration with other Federal agencies also includes a rich 
array of joint projects to advance mutual goals. To highlight a few 
examples of S&T partnering with other Federal agencies:
  <bullet> S&T has been working with the Defense Threat Reduction 
        Agency (DTRA), EPA, and HHS on several interagency efforts that 
        will increase resilience and recovery following a biological 
        weapons attack, whether the attack targets civilian or military 
        assets.
  <bullet> S&T and the Defense Advanced Research Projects Agency 
        (DARPA) are collaborating on an effort that is investigating 
        lightweight, blast-resistant materials that will provide 
        enhanced security in shipping air cargo, again benefiting both 
        military and civilian security.
  <bullet> Working with DoD, DOJ, and the intelligence community, we're 
        focusing on the development of two different approaches to 
        verify familial linkages for refugee and asylum and adoption 
        applications. S&T expects to transition this to the U.S. 
        Customs and Immigration Service (USCIS). Our Federal partners 
        have contributed $23.5 million to the effort.
  <bullet> We've partnered with DARPA to leverage their $25 million 
        basic research investment in advanced data collection and 
        analysis methods to develop the next generation of automated 
        target recognition software for explosive detection systems.
  <bullet> Working in partnership with DoD and the DOE National 
        Laboratories, we have begun an effort to develop a rapid 
        clinical diagnostic capability that can detect whether someone 
        has been exposed to a range of biothreat agents before symptoms 
        appear.
    S&T has also begun engaging with the private sector via investments 
through In-Q-Tel. In 1999, the Central Intelligence Agency supported 
the establishment of In-Q-Tel as a not-for-profit strategic investment 
firm designed to bridge the gap between new advances in commercial 
technology and the technology needs of the U.S. intelligence and 
security communities. Most In-Q-Tel investments combine funds from more 
than one partner agency, allowing S&T to leverage significant 
investments from the intelligence community.
    S&T's first project via In-Q-Tel was just announced with a company 
called Genia Photonics. This company developed a tunable laser source 
for the medical community and S&T is investigating the feasibility of 
this technology to perform non-contact, trace explosives detection. S&T 
expects to close four more In-Q-Tel deals in the next few months. All 
of these projects are expected to produce transition-ready technologies 
in the next 12 to 24 months. S&T's total investment of $6.7 million is 
leveraging $11.5 million in investments by other Government agencies. 
In addition, In-Q-Tel reports that $1 of Government investment can 
attract $10 in private sector funding.
    S&T's collaborations with other agencies at both the policy and 
programmatic level enable us to reach beyond the resources of DHS alone 
in order to better provide capabilities that strengthen our homeland 
security efforts.

University Partnerships
    Leveraging the investment and expertise of academia is a key part 
of S&T's strategy to meet the needs of the Department. To this end, S&T 
is supporting nine university-based Centers of Excellence (COEs). These 
consortia of colleges, universities, and private sector partners pursue 
a mixed portfolio of basic and applied research addressing both short- 
and long-term homeland security needs. DHS Components can directly 
engage the COEs for specific research; to date, Components have 
invested a total of $21.9 million in the Centers. The COEs estimate 
that they've attracted an additional $46 million in funding from non-
DHS sources including Federal, State, and local agencies, and private 
sector partners in 2010.
    The COEs have been successful because they've built a reputation 
for delivering high-impact work with direct, practical application. For 
example, investigators from the Coastal Hazards COE (CHC) at the 
University of North Carolina-Chapel Hill assisted the USCG by tracking 
the likely storm surge/wave impact of Hurricane Irene. CHC's 
information led the USCG to relocate a Command Center, just before its 
previous location was damaged by the hurricane. The expertise and 
foresight of CHC minimized the hurricane's disruptions to USCG's rescue 
and response operations and the Center has received commendations from 
the USCG's senior leadership.

International Collaborations
    S&T has bilateral agreements with 12 international partners, which 
enable DHS and other agencies in the HSE to leverage funds, manpower, 
and facilities in support of our mission. In fiscal year 2011, we had 
134 active bilateral projects, including $15 million in contributions 
from our international partners. Examples include $11 million from The 
Netherlands for a Levee Integrity Monitoring project, $1.5 million from 
Singapore to build and test a Hybrid Composite Container, and $1.2 
million from Sweden for the International Submillimeter-Wave Standoff 
Imager Project, an effort aimed at increasing the capacity to scan 
large, unstructured crowds for concealed objects, as opposed to 
conventional checkpoints. Our international projects provide a cost-
effective, collaborative approach to common homeland security problem 
sets, capitalizing on our international partners' expertise and 
resources.

              SELECTED ACHIEVEMENTS OF THE S&T DIRECTORATE

    Since I assumed this role, we have made many changes and have 
achieved some notable successes, even in the face of significant budget 
constraints. A hallmark of the past 2 years in S&T has been the 
unrelenting focus we've placed on transitioning our R&D efforts to use 
in the field. Commercialization of successful R&D projects is one 
important means of accomplishing this goal. We have significantly 
improved our ability to work with private sector partners to 
commercialize our investments. Another approach to transitioning to use 
is to closely partner with users throughout the development process to 
ensure that final products meet users' end needs and are incorporated 
into Component acquisition plans.
    I will briefly enumerate a few of our success stories highlighting 
the transition to use in the field as well as our analytical and 
technical capabilities.
Transition to Use in the Field
  <bullet> S&T partnered with Mine Safety Appliance (MSA) to integrate 
        and certify S&T's lighter and smaller profile, self-contained 
        breathing apparatus (SCBA) cylinder array into a full SCBA 
        ensemble that could be National Fire Protection Association 
        (NFPA) and National Institute for Occupational Safety and 
        Health (NIOSH) tested/certified for use by firefighters. MSA 
        invested its own money for this effort; its financial 
        commitment was equal to 65% of the project's total cost. This 
        will be the first major redesign in decades of this critical 
        piece of first responder safety equipment.
  <bullet> Consolidated Edison provided almost half of the total 
        project costs to partner with S&T on a new superconducting 
        cable that can join multiple power substations in an 
        interconnected web. This resilient electric grid will help 
        protect against the type of power surges that took down the 
        power grid in the entire Northeast in 2003. Consolidated Edison 
        is installing the S&T technology for testing at its facility in 
        2013.
  <bullet> S&T has developed a next generation explosives trace 
        detection device that is ten times more sensitive than existing 
        systems, can detect narcotics as well as explosives, and is 
        similarly priced as existing machines. The FLIR Systems, Inc. 
        device will soon complete TSA qualification testing. S&T 
        anticipates that the device will be commercially available 
        within 1 year.
  <bullet> On the cyber front, DHS is responsible for protecting the 
        ``.com'' and ``.gov'' cyber-networks. S&T's Domain Name System 
        Security (DNSSEC) project protects the public by preventing 
        internet users from being covertly redirected to malicious 
        websites that look like legitimate sites, such as banks, but 
        attempt to steal personal information. DNSSEC has been and is 
        in wide use by 32 top level domains (such as ``.com'', 
        ``.gov'', ``.uk'', etc.) S&T won the 2011 National 
        Cybersecurity Innovation award for DNSSEC in the category of 
        ``Building a Federal Cybersecurity Research Program that 
        Results in Substantial Cyber Risk Reduction''.
  <bullet> S&T, working with the U.S. Department of Agriculture, has 
        developed a next generation vaccine against a strain of Foot 
        and Mouth Disease (FMD). This year the vaccine passed a major 
        milestone and entered live animal trials; it holds the promise 
        of eliminating the billion-dollar threat that FMD poses against 
        our Nation's agricultural sector. Finally, S&T has had great 
        success in the past 2 years in improving information sharing 
        for first responders across all levels of government through 
        its Virtual USA (vUSA) program. vUSA is a blend of process and 
        technology that provides a virtual pipeline to allow data, such 
        as the operational status of critical infrastructure, emergency 
        vehicle locations, weather and traffic conditions, and 
        evacuation routes, to be shared by different systems and 
        operating platforms with no changes to current systems. vUSA 
        was chosen as a White House Open Government Initiative and has 
        been used across the country to provide situational awareness 
        and decision support for the DeepWater Horizon oil spill and 
        this year's Mississippi River flooding. States in the Southeast 
        (11 States), Pacific Northwest (4 States), and the Central U.S. 
        Earthquake Consortium (8 States) are currently using vUSA. The 
        network will continue to expand to other State agencies, 
        businesses, and non-profit groups.

Technical and Analytical Capabilities
  <bullet> S&T teamed with CBP and the S&T-managed Federally Funded 
        Research and Development Center, the Homeland Security Studies 
        and Analysis Institute (HSSAI), to conduct an analysis of 
        alternatives for the Southern Border's virtual fence. The 
        result was a recommendation to discontinue the SBInet program 
        and focus on other approaches.
  <bullet> S&T has worked closely with U.S. Secret Service (USSS) on 
        the Apex Science and Technology for Operational Research 
        Enhancement (STORE) program to deliver needed technologies, and 
        more importantly, help them develop a systems-based approach to 
        show the impact and cost-versus-benefit of technology 
        enhancements on their protective mission. This aspect of the 
        program was essential to USSS's basis for their technology 
        acquisition planning and budgeting process.

                               CONCLUSION

    The people of S&T constitute the core source of technical expertise 
available to the Homeland Security Enterprise. In the past 2 years we 
have realigned the Directorate's structure, and revised many of the 
processes by which we choose and pursue our work, and formed valuable 
partnerships with other R&D organizations, universities, the private 
sector, and abroad--all with the intent of more effectively and 
efficiently advancing the missions of the Homeland Security Enterprise. 
We have made it our first priority to achieve rapid transition of 
research and development projects to use in the field. We have also 
expanded the reach of S&T's technical talent to improve DHS project 
management and acquisition processes.
    To these ends, S&T has revamped project selection processes to 
ensure we are investing in problems of highest importance to HSE 
operators. We have established Apex projects to enable us to invent and 
implement solutions to large, complex, high-priority problems. We have 
demonstrated the power of intensive collaboration and devised processes 
to make such partnerships a cornerstone of our work, whether with our 
HSE partners or in collaboration with partner R&D organizations. We are 
placing a strong emphasis on technology foraging--on seeking and using 
technology investments by others both to improve S&T's return on 
investment and to reduce development time. We have reduced the number 
of projects we pursue, improving the likelihood that chosen efforts 
have sufficient resources to succeed in a timely way and are carefully 
tracked throughout development. We have restructured our organization 
to dedicate significant resources to analysis of operational and 
acquisition needs and to instill a more systems-oriented approach 
throughout DHS activities.
    Throughout American history, much of the country's wealth, and many 
of our successes, have come from our ability to forge practical 
solutions to difficult problems. We have excelled at harnessing science 
to serve human purposes and to produce innovative technologies which 
create new capacities that transform once impossible, costly, or 
dangerous goals into feasible activities. Congress designed S&T to 
continue this tradition of innovative problem-solving in the service of 
protecting homeland security. I believe the S&T Directorate is making 
significant contributions to these ends and is becoming increasingly 
better prepared to make such contributions. This progress is due to the 
hard work of S&T's people, to our deepening understanding of the 
precise problems confronting our operational partners, and to the 
Directorate's increasing capacity to identify and make use of the 
innovation of others in the private sector, in universities, in the 
National labs and around the world. I am honored to lead the DHS S&T 
Directorate and look forward to your questions.

    Mr. Lungren. Now, Mr. Maurer, you are recognized.

 STATEMENT OF DAVID C. MAURER, DIRECTOR, HOMELAND SECURITY AND 
     JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Maurer. Good morning, Chairman Lungren, Ranking Member 
Thompson, and other Members and staff. I am pleased to be here 
today to discuss the findings from our prior work looking at 
research and development at the Department of Homeland Security 
and other departments and agencies.
    As you know, R&D is the front end of a long, complex 
process that translates good ideas into systems that enhance 
Homeland Security. It is important to recognize and practice 
how difficult it is to do this. Managing R&D requires accepting 
risk and some degree of failure while still ensuring new and 
innovative technologies make the leap from labs to real-world 
use. Getting this balance right ensures a steady flow of new 
technologies to help front-line operators carry out their 
missions. S&T has laid responsibility for this within DHS. S&T 
also plays a key role in evaluating and overseeing DHS testing 
and evaluation.
    Over the past 2 years, S&T has reorganized to better 
achieve its goals and work more closely with DHS components. At 
the same time, DHS has--S&T is managing a decline in budget 
resources, requiring the Directorate to reprioritize its 
efforts. This is not the first time a Federal agency has faced 
these challenges. In the past we have reported on the 
transformation of R&D efforts in the Federal Government 
stemming from changing priorities and reduced resources.
    My testimony today focuses on three topics: The findings 
from our prior work related to S&T's test and evaluation 
efforts; S&T's recent reorganization; and key findings from our 
past work on managing Federal R&D. I will briefly summarize the 
key points from all three of these areas.
    First, in June of this year, we reported that S&T was, for 
the most part, properly executing its oversight requirements 
for testing and evaluation of acquisition programs. However, 
additional steps were needed to ensure that all requirements 
were met. Specifically, S&T did not consistently document its 
review and approval during key portions of the acquisition 
process. DHS agreed with our recommendations and is taking 
actions to address them.
    Second, since 2009, S&T has conducted a reorganization, 
underwent a new strategic planning process, crafted new 
strategic goals, and has developed a draft strategic plan which 
is currently in the process of being finalized. S&T is also 
committed to an annual review of its portfolio of basic and 
applied R&D projects.
    In sum, these efforts represent a comprehensive attempt by 
S&T to re-look at the way it carries out its R&D mission. We 
are currently assessing these issues as part of an on-going 
review of R&D at DHS for the Senate Committee on Homeland 
Security and Governmental Affairs. We will report on our 
findings next year.
    Finally, our prior work on R&D at other Federal agencies 
could provide insight for S&T as it moves forward. For example, 
during the 1990s, we issued a series of reports on Federal 
efforts to restructure R&D in the wake of the end of the Cold 
War, and efforts to balance the Federal budget. More recently, 
we have issued reports on R&D at the Departments of Defense, 
Energy, and DHS, as well as at the Environmental Protection 
Agency. The key findings across this body of work could 
potentially help S&T's efforts to meet DHS' R&D needs.
    For example, we have reported that developing comprehensive 
R&D strategies with clear roles, responsibilities, and 
visibility over the full range of R&D efforts mitigates the 
risk of duplication and overlap.
    Organizations that have successfully restructured R&D 
aligned R&D activities with the needs of the eventual users, 
determined what was needed to support these activities and 
collected reliable data on the costs involved. Department-wide 
R&D efforts should have systems in place to ensure success in 
meeting objectives, and monitor and report on progress. 
Individual programs should have clearly-defined missions that 
align and collectively build through achieving broader 
Departmental and National priorities.
    Since our assessment of research and development at DHS is 
currently underway, we are not in a position today to comment 
on whether DHS has successfully addressed all of these issues. 
However, we believe that the findings from our prior work can 
provide valuable insights for both DHS and the Congress.
    Mr. Chairman, that concludes my statement. Thank you for 
the opportunity to testify. I look forward to your questions.
    [The prepared statement of Mr. Maurer follows:]

                 Prepared Statement of David C. Maurer
                           November 17, 2011

DHS RESEARCH AND DEVELOPMENT: SCIENCE AND TECHNOLOGY DIRECTORATE'S TEST 
               AND EVALUATION AND REORGANIZATION EFFORTS

    Chairman Lungren, Ranking Member Clarke, and Members of the 
subcommittee: I am pleased to be here today to discuss our prior work 
examining the Department of Homeland Security's (DHS) Science and 
Technology Directorate (S&T) and Research and Development (R&D) 
efforts. The Homeland Security Act of 2002 created DHS and, within it, 
established S&T with the responsibility for conducting National 
research, development, test, and evaluation (T&E) of technology and 
systems for, among other things, detecting, preventing, protecting 
against, and responding to terrorist attacks.\1\ Since its creation in 
2003, DHS, through both S&T and its components, has spent billions of 
dollars researching and developing technologies used to support a wide 
range of missions including securing the border, detecting nuclear 
devices, and screening airline passengers and baggage for explosives, 
among others. S&T has a wide-ranging mission, which includes conducting 
basic and applied research of technologies,\2\ and overseeing the 
testing and evaluation of component acquisitions and technologies to 
ensure that they meet DHS acquisition requirements before 
implementation in the field.\3\ In recent years, we have reported that 
DHS has experienced challenges in managing its multibillion-dollar 
technology development and acquisition efforts, including implementing 
technologies that did not meet intended requirements and were not 
appropriately tested and evaluated. These problems highlight the 
important role that S&T plays in overseeing DHS testing and evaluation.
---------------------------------------------------------------------------
    \1\ Pub. L. No. 107-296,  302(5), 116 Stat. 2135, 2163 (2002).
    \2\ According to S&T, basic research includes scientific efforts 
and experimentation directed toward increasing knowledge and 
understanding in the fields of physical, engineering, environmental, 
social, and life sciences related to long-term National needs. Applied 
research includes efforts directed toward solving specific problems 
with a view toward developing and evaluating the feasibility of 
proposed solutions.
    \3\ S&T's Test & Evaluation and Standards office is responsible for 
overseeing key requirements that DHS components are required to follow 
in DHS's Test and Evaluation directive.
---------------------------------------------------------------------------
    S&T has reorganized to better achieve its goals and provide better 
assistance to DHS components in developing technologies. In addition to 
the challenge of implementing its varied mission, S&T is also managing 
a decline in available R&D resources. S&T's fiscal year 2011 
appropriation decreased 20 percent from fiscal year 2010 and, while its 
fiscal year 2012 appropriation has not yet been enacted, both the House 
and Senate marks for the agency are lower than what was appropriated in 
fiscal year 2011.\4\ As a result, S&T has had to adjust resources and 
re-prioritize its efforts. In the past, we have reported on issues 
related to the transformation and reorganization of R&D efforts in the 
Federal Government, particularly related to shifting of priorities and 
managing a reduction in resources.\5\ In addition, we identified DHS 
R&D as an area for potential costs savings in our March 2011 report 
regarding opportunities to reduce potential duplication in Government 
programs, save tax dollars, and enhance revenue.\6\ Specifically, we 
reported that DHS could take further actions to improve its management 
of R&D and reduce costs by ensuring that testing efforts are completed 
before making acquisition decisions and cost-benefit analyses are 
conducted to reduce R&D inefficiencies and costs.
---------------------------------------------------------------------------
    \4\ The fiscal year 2012 appropriations bill passed by the House of 
Representatives would appropriate about 42 percent less for S&T than 
what was appropriated in fiscal year 2011, while the bill passed by the 
Senate appropriations committee would provide almost 5 percent less.
    \5\ GAO, Homeland Security: DHS Needs a Strategy to Use DOE's 
Laboratories for Research on Nuclear, Biological, and Chemical 
Detection and Response Technologies, GAO-04-653 (Washington, DC: May 
24, 2004); Department of Energy: Uncertain Progress in Implementing 
National Laboratory Reforms, RCED-98-197 (Washington, DC: Sept. 10, 
1998); Best Practices: Elements Critical to Successfully Reducing 
Unneeded RDT&E Infrastructure, RCED-98-23 (Washington, DC: Jan. 8, 
1998).
    \6\ GAO, Opportunities to Reduce Potential Duplication in 
Government Programs, Save Tax Dollars, and Enhance Revenue, GAO-11-
318SP (Washington, DC: Mar. 2011). See also related GAO products at the 
end of this statement.
---------------------------------------------------------------------------
    My testimony today focuses on the key findings from our prior work 
related to S&T's test and evaluation efforts, S&T's recent 
reorganization efforts, and key findings from our past work related to 
Federal R&D. Specifically, this statement will address:
  <bullet> the extent to which S&T oversees T&E of major DHS 
        acquisitions and what challenges, if any, S&T officials report 
        facing in overseeing T&E across DHS; and:
  <bullet> S&T's recent reorganization efforts and how key findings 
        from our prior work on R&D in the Federal Government can inform 
        how S&T moves forward.
    This statement is based on reports and testimonies we issued from 
March 1995 to July 2011 related to DHS's efforts to manage, test, and 
deploy various technology programs; transformation of Federal R&D; and 
selected updates conducted from July 2011 to the present related to 
S&T's reorganization efforts.\7\ For the updates, we reviewed recent 
S&T testimonies and documentation related to the reorganization as well 
as information on annual S&T appropriations and budget requests from 
fiscal years 2009 to 2012. For our past work, we reviewed DHS 
directives and testing plans, interviewed DHS, Department of Energy, 
Department of Defense, Environmental Protection Agency, and other 
agency officials, reviewed documentation from these agencies, visited 
laboratory facilities, and examined agency databases, among other 
things. We conducted this work in accordance with generally accepted 
Government auditing standards. More detailed information on the scope 
and methodology from our previous work can be found within each 
specific report.
---------------------------------------------------------------------------
    \7\ See related GAO products list at the end of this statement.
---------------------------------------------------------------------------
S&T COULD TAKE ADDITIONAL STEPS TO ENSURE THAT DHS T&E REQUIREMENTS ARE 
      MET; OFFICIALS CITED CHALLENGES TO OVERSEEING T&E ACROSS DHS

S&T Oversight of DHS Testing and Evaluation
    In June 2011, we reported that S&T met some of its oversight 
requirements for T&E of acquisition programs we reviewed, but 
additional steps were needed to ensure that all requirements were 
met.\8\ Specifically, since DHS issued the T&E directive in May 2009, 
S&T reviewed or approved T&E documents and plans for programs 
undergoing testing, and conducted independent assessments for the 
programs that completed operational testing during this time period. 
S&T officials told us that they also provided input and reviewed other 
T&E documentation, such as components' documents describing the 
programs' performance requirements, as required by the T&E directive. 
DHS senior-level officials considered S&T's T&E assessments and input 
in deciding whether programs were ready to proceed to the next 
acquisition phase. However, S&T did not consistently document its 
review and approval of components' test agents--a Government entity or 
independent contractor carrying out independent operational testing for 
a major acquisition--or document its review of other component 
acquisition documents, such as those establishing programs' operational 
requirements, as required by the T&E directive. For example, 8 of the 
11 acquisition programs we reviewed had hired test agents, but 
documentation of S&T approval of these agents existed for only 3 of 
these 8 programs. We reported that approving test agents is important 
to ensure that they are independent of the program and that they meet 
requirements of the T&E directive.
---------------------------------------------------------------------------
    \8\ GAO, DHS Science and Technology: Additional Steps Needed to 
Ensure Test and Evaluation Requirements Are Met, GAO-11-596 
(Washington, DC: June 15, 2011).
---------------------------------------------------------------------------
    S&T officials agreed that they did not have a mechanism in place 
requiring a consistent method for documenting their review or approval 
and the extent to which the review or approval criteria were met. We 
reported that without mechanisms in place for documenting its review or 
approval of acquisition documents and T&E requirements, such as 
approving test agents, it is difficult for DHS or a third party to 
review and validate S&T's decision-making process and ensure that it is 
overseeing components' T&E efforts in accordance with acquisition and 
T&E directives and internal control standards for the Federal 
Government. As a result, we recommended that S&T develop a mechanism to 
document both its approval of operational test agents and component 
acquisitions documentation to ensure that these meet the requirements 
of the DHS T&E directive. S&T concurred and reported that the agency 
has since developed internal procedures to ensure that the approval of 
test agents and component acquisition documents are documented.

Challenges in Coordinating and Overseeing T&E Across DHS
    We also reported in June 2011 that S&T and DHS component officials 
stated that they face challenges in overseeing T&E across DHS 
components which fell into 4 categories: (1) Ensuring that a program's 
operational requirements--the key performance requirements that must be 
met for a program to achieve its intended goals--can be effectively 
tested; (2) working with DHS component program staff who have limited 
T&E expertise and experience; (3) using existing T&E directives and 
guidance to oversee complex information technology acquisitions; and 
(4) ensuring that components allow sufficient time for T&E while 
remaining within program cost and schedule estimates.
    Both S&T and DHS, more broadly, have begun initiatives to address 
some of these challenges, such as establishing a T&E council to 
disseminate best practices to component program managers, and 
developing specific guidance for testing and evaluating information 
technology acquisitions. In addition, as part of S&T's recent 
reorganization, the agency has developed a new division specifically 
geared toward assisting components in developing requirements that can 
be tested, among other things. However, since these efforts have only 
recently been initiated to address these DHS-wide challenges, it is too 
soon to determine their effectiveness.

 S&T RECENTLY REORGANIZED AND OUR PRIOR R&D WORK COULD INFORM HOW S&T 
                             MOVES FORWARD

    Since 2009, S&T has undertaken a series of efforts related to its 
organizational structure. S&T underwent a new strategic planning 
process, developed new strategic goals, and conducted a reorganization 
intended to better achieve its strategic goals. These efforts were 
implemented after a 2009 National Academy of Public Administration 
study found that S&T's organizational structure posed communication 
challenges across the agency and that the agency lacked a cohesive 
strategic plan and mechanisms to assess performance in a systematic 
way, among other things.\9\ In August 2010, S&T reorganized to align 
its structure with its top strategic goals, allow for easier 
interaction among senior leadership, and reduce the number of personnel 
directly reporting to the Under Secretary of S&T. Additionally, after 
the Under Secretary was confirmed in November 2009, S&T instituted a 
new strategic planning process which helped inform the development of 
new strategic goals. The new strategic goals announced in August 2010 
include:
---------------------------------------------------------------------------
    \9\ National Academy of Public Administration, Department of 
Homeland Security Science and Technology Directorate: Developing 
Technology to Protect America (Washington, DC: June 2009).
---------------------------------------------------------------------------
  <bullet> rapidly developing and delivering knowledge, analyses, and 
        innovative solutions that advance the mission of DHS;
  <bullet> leveraging its expertise to assist DHS components' efforts 
        to establish operational requirements, and select and acquire 
        needed technologies;
  <bullet> strengthening the Homeland Security Enterprise and First 
        Responders' capabilities to protect the homeland and respond to 
        disasters;
  <bullet> conducting, catalyzing, and surveying scientific discoveries 
        and inventions relevant to existing and emerging homeland 
        security challenges; and,
  <bullet> fostering a culture of innovation and learning in S&T and 
        across DHS that addresses mission needs with scientific, 
        analytic, and technical rigor.
    According to S&T, the agency has developed a draft strategic plan 
that provides its overall approach to meeting these strategic goals, 
which is currently in the process of being finalized.
    Moreover, according to testimony by the Under Secretary of S&T in 
March 2011, to ensure that individual R&D projects are meeting their 
goals, S&T has committed to an annual review of its portfolio of basic 
and applied R&D and all proposed ``new start'' projects. According to 
S&T, the review process uses metrics determined by S&T, with input from 
DHS components, that are aligned with DHS priorities. These metrics 
consider:
  <bullet> the impact on the customer's mission;
  <bullet> the ability to transition these products to the field;
  <bullet> whether the investment positions S&T for the future;
  <bullet> whether the projects are aligned with customer requirements;
  <bullet> whether S&T has the appropriate level of customer 
        interaction; and,
  <bullet> whether S&T is sufficiently innovative in the way it is 
        approaching its challenges.
    We are currently reviewing DHS and S&T's processes for 
prioritizing, coordinating, and measuring the results of its R&D 
efforts for the Senate Committee on Homeland Security and Governmental 
Affairs and we will report on this issue next year.
    Our prior work related to R&D at other Federal agencies could 
provide insight for S&T as it moves forward with new structures and 
processes operating within potential fiscal constraints. During the 
1990s, we issued a series of reports on Federal efforts to restructure 
R&D in the wake of changing priorities and efforts to balance the 
Federal budget. More recently, we have issued reports on R&D issues at 
the Department of Defense (DOD), Department of Energy (DOE), the 
Environmental Protection Agency (EPA), and DHS. Although the specific 
recommendations and issues vary from department to department, there 
are key findings across this body of work that could potentially help 
inform S&T's efforts to meet DHS's R&D needs, as well as Congressional 
oversight of these activities. Since our assessment of R&D efforts at 
DHS is currently under way, we have not determined the extent to which 
these key findings from our prior work are applicable to DHS's R&D 
efforts or the extent to which DHS already has similar efforts under 
way. However, our prior work could provide valuable insights into how 
DHS could leverage the private sector to help conduct R&D, restructure 
R&D efforts in response to fiscal constraints, and develop 
comprehensive strategies to mitigate the risk of duplication and 
overlap. For example:
  <bullet> We reported on Federal agencies that have restructured their 
        research and development efforts in response to fiscal 
        constraints. For example, in January 1998, we reported on 
        efforts by Federal agencies, such as DOD, the DOE National 
        Laboratories, and NASA, to streamline their R&D activities and 
        infrastructure. We reported that restructuring research, 
        development, testing, and evaluation to meet current and future 
        needs required interagency agreements and cross-agency efforts, 
        in addition to on-going individual efforts.\10\ Additionally, 
        we reported on five elements that were useful in the successful 
        restructuring of R&D in corporate and foreign government 
        organizations. For example, we found that successful 
        restructuring of R&D activities included having a core mission 
        that supports overall goals and strategies, clear definitions 
        of those responsible for supporting that mission, and accurate 
        data on total costs of the organization's activities.
---------------------------------------------------------------------------
    \10\ GAO, Best Practices: Elements Critical to Successfully 
Reducing Unneeded RDT&E Infrastructure, RCED-98-23 (Washington, DC: 
Jan. 8, 1998).
---------------------------------------------------------------------------
  <bullet> In addition, we have reported that comprehensive strategies 
        mitigate risk of duplication and overlap.\11\ For example, we 
        reported in March 2011 that DOD did not have a comprehensive 
        approach to manage and oversee the breadth of its activities 
        for developing new capabilities in response to urgent 
        warfighter needs, including entities engaged in experimentation 
        and rapid prototyping to accelerate the transition of 
        technologies to the warfighter, and lacked visibility over the 
        full range of its efforts.\12\ As a result, we recommended that 
        DOD issue guidance that defined roles, responsibilities, and 
        authorities across the Department to lead its efforts. DOD 
        agreed with this recommendation.
---------------------------------------------------------------------------
    \11\ GAO-11-318SP.
    \12\ GAO, Warfighter Support: DOD's Urgent Needs Processes Need a 
More Comprehensive Approach and Evaluation for Potential Consolidation, 
GAO-11-273 (Washington, DC: Mar. 1, 2011).
---------------------------------------------------------------------------
  <bullet> Within DHS itself, we reported in May 2004 that DHS did not 
        have a strategic plan to guide its R&D efforts. We recommended 
        that DHS complete a strategic R&D plan and ensure that the plan 
        was integrated with homeland security R&D conducted by other 
        Federal agencies.\13\ We also recommended that DHS develop 
        criteria for distributing annual funding and for making long-
        term investments in laboratory capabilities, as well as develop 
        guidelines that detailed how DOE's laboratories would compete 
        for funding with private sector and academic entities. DHS 
        agreed with our recommendations. While S&T developed a 5-year 
        R&D plan in 2008 to guide its efforts and is currently 
        finalizing a new strategic plan to align its own R&D 
        investments and goals, DHS has not yet completed a strategic 
        plan to align all R&D efforts across the Department, as we 
        previously recommended.
---------------------------------------------------------------------------
    \13\ GAO, Homeland Security: DHS Needs a Strategy to Use DOE's 
Laboratories for Research on Nuclear, Biological, and Chemical 
Detection and Response Technologies, GAO-04-653 (Washington, DC: May 
24, 2004).
---------------------------------------------------------------------------
  <bullet> Our work on DOE National Laboratories provides additional 
        insights related to oversight of R&D efforts that could be 
        useful for DHS S&T. In 1995, we reported that DOE's National 
        laboratories did not have clearly-defined missions focused on 
        accomplishing DOE's changing objectives and National 
        priorities.\14\ DOE, at that time, managed the National 
        laboratories on a program-by-program basis which inhibited 
        cooperation across programs and hindered DOE's ability to use 
        the laboratories to meet Departmental missions. We recommended, 
        among other things, that DOE develop a strategy that maximized 
        the laboratories' resources. In responding, DOE said that it 
        had undertaken a new strategic planning process which resulted 
        in a strategic plan. Though DOE developed a strategic plan 
        intended to integrate its missions and programs, in 1998 we 
        reported that the laboratories did not function as an 
        integrated National research and development system and 
        recommended that DOE develop a comprehensive strategy to be 
        used to assess success in meeting objectives, monitor progress, 
        and report on that progress.\15\ DOE acknowledged that it 
        needed to better focus the laboratories' missions and tie them 
        to the annual budget process, but that it would take time to 
        accomplish.
---------------------------------------------------------------------------
    \14\ GAO, Department of Energy: National Laboratories Need Clearer 
Missions and Better Management, RCED-95-10 (Washington, DC: Jan. 27, 
1995).
    \15\ GAO, Department of Energy: Uncertain Progress in Implementing 
National Laboratory Reforms, RCED-98-197 (Washington, DC: Sept. 10, 
1998).
---------------------------------------------------------------------------
  <bullet> More recently, we reported in June 2009 that DOE could not 
        determine the effectiveness of its laboratories' technology 
        transfer efforts because it has not yet defined its overarching 
        strategic goals for technology transfer and lacks reliable 
        performance data.\16\ Instead, individual DOE programs such as 
        the National Nuclear Security Administration and DOE's Office 
        of Science articulated their own goals for technology transfer 
        at the National laboratories. We recommended, among other 
        things, that DOE articulate Department-wide priorities and 
        develop clear goals, objectives, and performance measures. DOE 
        generally agreed with our findings.
---------------------------------------------------------------------------
    \16\ GAO, Technology Transfer: Clearer Priorities and Greater Use 
of Innovative Approaches Could Increase the Effectiveness of Technology 
Transfer at Department of Energy Laboratories, GAO-09-548 (Washington, 
DC: June 16, 2009).
---------------------------------------------------------------------------
  <bullet> Lastly, our work on Environmental Protection Agency (EPA) 
        laboratory facilities also offers insights into the importance 
        of planning and coordination in managing R&D.\17\ Specifically, 
        we reported in July 2011 that EPA has yet to fully address the 
        findings of numerous past studies that have examined EPA's 
        science activities. These past evaluations noted the need for 
        EPA to improve long-term planning, priority setting, and 
        coordination of laboratory activities, establish leadership for 
        agency-wide scientific oversight and decision making, and 
        better manage the laboratories' workforce and infrastructure. 
        We recommended, among other things, that EPA develop a 
        coordinated planning process for its scientific activities and 
        appoint a top-level official with authority over all the 
        laboratories, improve physical and real property planning 
        decisions, and develop a workforce planning process for all 
        laboratories that reflects current and future needs of 
        laboratory facilities. EPA generally agreed with our findings 
        and recommendations.
---------------------------------------------------------------------------
    \17\ GAO, Environmental Protection Agency: To Better Fulfill Its 
Mission, EPA Needs a More Coordinated Approach to Managing Its 
Laboratories, GAO-11-347 (Washington, DC: July 25, 2011).
---------------------------------------------------------------------------
    Chairman Lungren, Ranking Member Clarke, and Members of the 
subcommittee, this concludes my prepared statement. I would be pleased 
to respond to any questions that you may have.

    Mr. Lungren. I thank you both for your testimony, and I 
would now start the questioning. Each Member will have 5 
minutes, and if we have time we might go into a second round.
    Dr. O'Toole, this is something that you referred to in your 
written testimony at the very end, and maybe you will have to 
submit a response after today, but something has come up 
yesterday when we were having a hearing over on the Judiciary 
Committee with respect to a fix on the problem of intellectual 
property theft via the internet. This has to do with movies, 
downloads of music, and so forth.
    The fix, which I can't describe in great detail--and that 
is why I say I may ask you to answer it later--that was 
presented in the bill that was before us has alarmed some 
engineers in the internet space that it would in some ways 
undercut what you have been doing with the Domain Name System 
Security Project.
    There was some sense that was raised with me that that 
project, while it is going forward, has not fully developed and 
needs to have buy-in from a number of elements in the private 
sector. There was some concern that if the legislation we are 
considering in the other committee were to go forward, it would 
undercut this particular response.
    First of all, where do you see the maturity of the DNS 
project today, and is there a problem with buy-in from the 
private sector on that; and have you heard anything about a 
worry about legislation attempting to deal with that problem of 
the theft of intellectual property interfering with the 
project?
    Dr. O'Toole. Well, on your third question, Mr. Chairman, 
no, I haven't. But I am happy to look into it and get back to 
you.
    DNSSEC is quite mature. This is an initiative meant to 
protect the internet and, in particular, meant to protect users 
of the internet from being highjacked to illicit sites where 
you can steal your password, you know, your money, your 
identity, and so forth. It has been adopted by over 30 of the 
largest domains, including dot-com, dot-gov, dot-org, dot-UK, 
so it is quite mature. It is just that the internet is a huge 
universe, so getting all of the dot-whatsits on-board takes 
time.
    Mr. Lungren. Sure.
    Dr. O'Toole. But we have made a lot of progress. It would 
be a shame to undermine it, but I am sure there is some kind of 
solution here and I am happy to get back with you on it.
    Mr. Lungren. Okay. I know that Stewart Baker publicly 
stated that he was fearful that this project, which is a good 
project that has received, I think, support from all 
administrations----
    Dr. O'Toole. Yes.
    Mr. Lungren [continuing]. That had been in charge at the 
time could be undone by this.
    Dr. O'Toole. Yes.
    Mr. Lungren. So that concerns me when he says that, and 
some other folks come to me, and I am just trying to hash it 
out. This is not a partisan issue. This is not even a question 
of jurisdiction among committees, although it could be. It, 
rather, is a concern that was expressed, frankly, when we had 
witnesses yesterday, and no one had the technical knowledge on 
it. So if you could help us on that, if we could pursue that 
further, I would really appreciate it.
    Dr. O'Toole. Be happy to.
    Mr. Lungren. All right. On the question of the Apex 
projects, as you outline it, it sounds great and it sounds like 
it allows you to focus on a means by which you can--I will use 
the word ``make judgments'' at an earlier stage as to how 
successful something is going to be, and then make some 
commitments towards it, strategic importance, et cetera.
    I guess my question would be: What you outlined sounds 
terrific; why would that not apply to all projects that would 
be brought before you?
    Dr. O'Toole. Many of the elements of Apex projects will be 
applied to all projects. Frankly, when we began this, I was 
using it as a stalking horse to model two things. One was 
multidisciplinary team approach, and second was a new way 
wherein S&T works with the components. That starts with an 
agreement between me and the component head.
    In the past, we were doing a lot of technology, at the 
request of the components, that turned out to be very tactical. 
Some operator wanted it, but it wasn't necessarily a top 
priority of the people leading the component, and it never made 
it into their acquisition cycle.
    So the Apex projects are very highly resourced. We can't do 
every project this way, but those two elements, we are going to 
solve the problem, not just create a gizmo. We are going to 
have buy-in from the operators from the beginning, and we are 
going to work in multidisciplinary teams, not just S&T's team, 
but we are going to be matched by a team on the operator side. 
Those elements are going to be part--already are part of our 
R&D efforts.
    Mr. Lungren. Very good. My time has expired, but when I get 
to the second round I want to ask you about how that applies to 
the BioWatch issue.
    The Ranking Member of the full committee is recognized for 
5 minutes.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Dr. O'Toole, I understand that you looked at the effects of 
the proposed budget cuts across the board. Can you share with 
me the effect that that would have on the Small Business 
Innovative Research Awards if the cuts go forward?
    Dr. O'Toole. Certainly. We currently have 60 small business 
awards. It would go down to four. We have created almost 3 
dozen patents under the small business awards and have involved 
businesses in 43 States over the years. We have been very 
successful with our SIBR efforts, and we would lose a lot of 
momentum under this budget.
    Mr. Thompson. Is your testimony that these small 
businesses, probably going from 60 to 4, would not be able to 
produce a real product--well, obviously the numerical number 
would go, but could they really go anywhere else and get 
resources to do what they do?
    Dr. O'Toole. A number of them would go out of business, 
there is no doubt about that. You know, there is a vicious 
cycle at work here. In this economic climate, as the Chairman 
said, what we need is more innovation to create more jobs and 
more opportunity. But there is not that much money around for 
innovation, and R&D does require an up-front investment. It has 
to be prudent, it has to be well-targeted, it has to be well-
managed. But you have to start with something to get something, 
and the small businesses in particular are having a hard time 
getting over that hump.
    Mr. Thompson. The other part of the budgetary crisis that I 
am concerned about if it goes forward is the retention of 
people over time that we put an awful lot of investment in. 
Have you made some analysis of professional personnel, if the 
cuts go forward, that we might lose in the Department?
    Dr. O'Toole. Well, in the Department as a whole, we already 
have a deficit of engineers and technical experts. That is why 
S&T's expertise is so important to the components to do 
operational analyses.
    A lot of the big acquisition problems in the Department 
have been the result of the absence of S&T involvement. In 
SBInet, for example, we were not involved until we suggested 
that CBP do an AOA, which resulted in the elimination of the 
virtual fence. So that would be a problem across DHS. We would 
not be hiring those people, as is now contemplated.
    In S&T, what I have been trying to do is take those program 
managers who no longer have money to manage, and make them part 
of the team in order to drive the existing projects forward 
faster to completion and success.
    At some point, you know, in our budget cuts, that does not 
become manageable and people will be let go. But I am hoping 
not to reach that point immediately. The M&A account for S&T 
has not changed.
    Mr. Thompson. Thank you.
    Mr. Maurer, as you indicated, you reviewed three areas: 
Funding; the recent reorganization; and some of the R&D 
efforts. I pretty much took from your review that GAO was 
reasonably satisfied with what they saw in those areas. Am I 
kind of summarizing the results?
    Mr. Maurer. Yes. The report that we issued back in June was 
looking at the role that S&T was playing in overseeing testing 
and evaluation across the Department as part of the acquisition 
process. By and large, we were satisfied with the role that S&T 
was playing, particularly compared to some of the past 
acquisition processes and practices within DHS.
    You know, we found that it was basically a compliance 
review. We were looking at whether the testing and evaluation 
specialists within S&T were doing what they were supposed to be 
doing under DHS directives, and we found that for the most part 
they were. They were interacting with the components, they were 
providing advice on a major multibillion-dollar acquisition 
system, so that was good for us to see.
    The areas where S&T needed to improve more was just in 
documenting and showing that that had actually taken place, and 
so they have taken action to address those recommendations. We 
are satisfied about that.
    Our on-going work that we are doing for your colleagues in 
the Senate is getting at the more central issue of how R&D is 
being managed across the entire Department, so that is looking 
at how the resources are being aligned relative to strategic 
priorities, not just in S&T but in other components that 
conduct research and development in the Department.
    We are also going to be looking at how well that is being 
coordinated between S&T and the various components, as well as 
the extent to which DHS has a good handle on understanding the 
progress that they are making towards the goals they have set 
out in the R&D realm.
    Mr. Thompson. Thank you. I yield back.
    Mr. Lungren. All right, the gentleman, Mr. Walberg, is 
recognized for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and thanks to the 
panelists for being here today. Director O'Toole, following up 
on the previous discussion, GAO testified that S&T has 
developed a draft strategic plan to meet the strategic goals 
outlined by you in August 2010.
    It is difficult for us to assess whether S&T's investments 
address Homeland Security's strategic goals and objectives 
without a strategic plan. It has been more than a year since 
these goals were released. When can we expect to see this plan 
finalized?
    Dr. O'Toole. Congressman, I appreciate your impatience and 
share it. It is finalized. This is a matter of formatting the 
report so that it is in accordance with OMB practices. It is a 
formatting issue, but it should be out very shortly. The 
essence of the plan has been documented in previous testimony 
and in shortened versions of the plan.
    We have also changed a few things because the world has 
changed since we first wrote the plan, and so some of our 
specific goals under our large strategies have shifted 
somewhat, but it is essentially done. I will make sure you have 
an early copy.
    Mr. Walberg. Yes, before the world changes too much more.
    Dr. O'Toole. Well, that I can't promise.
    Mr. Walberg. None of us can, that is for certain. You have 
stated as well that the S&T Directorate engaged with the Office 
of Science and Technology Policy to develop a Federal Homeland 
Security R&D strategy. What is the status of that strategy?
    Dr. O'Toole. I expect that to be finished towards the first 
of the year, though it does have to go through interagency 
approval which--who knows?
    But it is very--it is in draft at this point. It is well 
underway. We are looking at the cross-agency strategy for 
management, chemical, biological, and nuclear R&D, as well as 
R&D related to domestic IEDs.
    Mr. Walberg. Okay, okay. Well, we encourage that as well. 
Data, data, data are helpful to us also in making decisions 
here.
    Moving over to cybersecurity issues, who else in the 
Government is funding cybersecurity R&D, and how do you 
collaborate and assure that the minimal conflicts take place in 
this R&D?
    Dr. O'Toole. Many National security agencies are funding 
R&D. DHS is the only entity doing R&D for the dot-gov and the 
civilian sector per se. We are in close contact and 
collaboration with many of these other agencies, with most of 
them I believe, and we participate in a monthly classified 
meeting with the security agencies on the classified aspects of 
R&D relevant to us.
    We have very deep and on-going collaborations, for example, 
with DARPA. They are using our test bed and, in fact, supplying 
the hardware to expand that test bed. We are working with the 
intelligence community. We, for example, are taking advantage 
of IQT, the entity invented by the IC that allows us to connect 
with the commercial sector, and we have a deal underway that 
involves a classified cyber fix.
    So we are very much engaged with the other agencies, but 
DHS does have the primary responsibility of creating fixes for 
the civilian sector.
    Mr. Walberg. Okay. Do you have any examples of successful 
interactions with the private sector that you could share with 
us----
    Dr. O'Toole. Yes.
    Mr. Walberg [continuing]. That you could share with us 
without having to fill us in afterwards?
    Dr. O'Toole. Sure. We, for example, have convened a group 
from the financial sector to talk about how we might solve some 
of their problems, which I probably shouldn't articulate in 
open session.
    We have done the same with SCADA systems, for example, the 
process operating controls that govern everything from chemical 
plant operations to dam operations. They have been very 
successful.
    We have created many solutions from the private sector that 
have already been adopted by the likes of Microsoft and McAfee, 
and we recently put out a broad area announcement that 
collected a thousand responses, several hundred of which we are 
going to fund. We are also getting resources from Australia and 
Great Britain to help fund some of those very good ideas from 
the private sector that have come in.
    Mr. Walberg. Thank you, I appreciate that.
    Mr. Lungren. The Chairman now recognizes the gentlelady 
from California, Ms. Richardson, for questions.
    Ms. Richardson. Thank you, Mr. Chairman.
    Dr. O'Toole, I view this hearing really as two important 
points that we needed to uncover. One was: What improvements 
and mechanisms have you put in place to ensure the 
effectiveness of our dollars? No. 2, I think, is to have a real 
clear understanding of the budget implications.
    Unfortunately, we are glad with all the information that 
you have prepared for us, but we didn't have enough time. I am 
willing to give you 2 minutes of my time if you would like to 
go back and look at your notes too, really, because I think it 
is very important for this committee for you to be able to 
summarize and clearly say the implications of these budget cuts 
upon your Department.
    Dr. O'Toole. Thank you. Well, I mean the essence has been 
outlined. The House budget is an 80 percent cut in our 
discretionary R&D, and it would leave us with this $45 million, 
which is about what we are spending today on explosive 
detection in aviation security and other behavior-based efforts 
related to securing the airways.
    Everything else would go away. I mean, we can list, you 
know, borders, border security, cargo security, biodefense, 
cybersecurity. There would be no money for any of that. We 
would have to spend some of the fiscal year 2012 money in 
shutting down commitments that we couldn't continue. Again, our 
laboratory expenses are almost $200 million.
    The Senate mark leaves us in a slightly better condition; 
it is $657 million. Again, half of that would have to go to 
operating costs and essential commitments. It would leave us as 
a viable R&D organization, but barely. Even at that level, we 
would be forced to focus on only four priority areas. There is 
a point in R&D where you can't just peanut-butter your efforts. 
You have to achieve a critical mass of intellectual capital and 
investment in an area in order to succeed. In that instance we 
would be forced to concentrate on the four priority areas of 
aviation security, cybersecurity, biodefense, and first 
responder needs. Everything else would go away.
    In neither scenario does Congress provide adequate funding 
to build the National Bio-Agro Facility, which would leave the 
country without a high-containment laboratory capable of 
handling contagious foreign animal diseases. This incurs a real 
risk to the country. We would have no way, in the event of an 
outbreak of these diseases, to handle them safely. We would be 
dependent upon work done by Australia or Canada or others, 
leaving at risk 10 percent of our economy.
    So, again, I think we are doing a credible job of managing 
our budget. I think that we in S&T leverage our skills and 
capability against the needs of DHS in ways that helps them 
work more efficiently.
    Certainly, I think we have already been a big help in 
ensuring that acquisitions start out with the right 
requirements, are appropriately handled, and come out on time, 
under budget, and deliver the technology you intended to get.
    We would have a very hard time maintaining our people under 
these budgets, which would, again, decrement the skill set that 
we have to use, even in an advisory mode, against the needs of 
DHS. So it is basically a decision not to have an S&T 
Directorate.
    Ms. Richardson. Thank you for your frank layout of the 
current situation that we are facing.
    Mr. Maurer, you had mentioned that you expected to have a 
report ready next year. Could you give us, the committee, a 
sense of when that report will be ready?
    Mr. Maurer. We just actually started to work on that last 
month. We had our entrance conference with the folks at S&T 
back in October. We are still in the early stages. We haven't 
negotiated a committed issue date for that product for our 
signed clients, but at this point I would anticipate having 
final results available sometime in the summer or early fall of 
next year. We will keep you posted on that as we are conducting 
the work.
    Ms. Richardson. Thank you. Then, Dr. O'Toole, what impact 
will the proposed cuts to S&T have on first responders and 
their ability to respond to emergencies? Let me give you an 
example of something I am working on in the district.
    Last week I had an opportunity to go to Beverly Hills 
Police Department that has really been on the forefront of the 
ISIS system, and then I know we are bringing back forward the 
proposal on the L.A. RIK system, which is a regional system for 
first responders.
    Could you share with us what you think some of these 
implications would be. Is it--I have now gone into my--okay, if 
you could give us a sense of that.
    Dr. O'Toole. Well, under the House mark, first responder 
work goes away. Under the Senate mark, I would retain it, but 
we would have far fewer resources.
    You know, again, S&T is the only entity in the U.S. 
Government dedicated to working with first responders, 
technology and R&D needs, amazingly. They have far more needs 
than we can meet as it is. We have established, again in 
response to the NAPA report, a very robust process for trying 
to gather and understand those needs and set priorities with 
the first responder communities.
    They have 11 top needs now that were established last 
summer, and we probably can't address more than two or three of 
them. So all of these programs and the support that they are 
being given would go away under the House mark, and they would 
would be a little better off under the Senate mark, but 
certainly decremented.
    Ms. Richardson. Thank you, Mr. Chairman. That concludes my 
questions.
    Mr. Lungren. Okay. I am going to start a second round.
    Dr. O'Toole, when you were talking about how you were using 
the Apex program, it prompted me to think of the BioWatch 
program. The S&T invested millions of dollars in coming up with 
a candidate, contender, whatever you want to call it, for a 
system of biological detectors. But when the Office of Health 
Affairs moved forward with its plan to test and ultimately 
procure a next-generation system, the one that came out of S&T 
was taken off the table.
    Can you explain to the committee the disconnect that 
occurred between S&T and one of the component parts? Is that 
the kind of thing you are trying to avoid with Apex, or might 
we see the same sort of thing? In these days when we are 
talking about millions being taken away, and then we find a 
program where we invested millions, and it just seemed to be 
taken off the table, was it just one of the things we thought 
looked good and it just turned out not to be, that happens 
sometimes, or what?
    Dr. O'Toole. Well, as David said, R&D is risky. The 
BioWatch program, as you noted, Mr. Chairman, is now operated 
by OHA. These questions about what the next-generation 
technology will be are part of a procurement procedure. So I am 
limited in what I can say. Let me just clarify that----
    Mr. Lungren. Well, am I wrong in my articulation of the 
facts, that I thought----
    Dr. O'Toole. No.
    Mr. Lungren [continuing]. S&T had developed tens----
    Dr. O'Toole. No, you are correct.
    Mr. Lungren [continuing]. Of millions of dollars towards 
developing something, and then that was not part of what is 
being considered?
    Dr. O'Toole. Yes. We supported a number of performers in 
developing biodetection technologies that could very rapidly 
identify bioweapons in aerosol form. One such technology that 
we had supported entered into the Phase I testing that OHA did, 
and failed that testing. I think that is about as much as I can 
say. I would be happy to go back for the record and put this in 
writing.
    Mr. Lungren. Okay. Let me ask you a hypothetical: With the 
Apex approach that you have now, are there certain measurement 
points at which you might, because of your closer cooperation 
with the component, you might be able to make a decision sooner 
rather than later that, well, we spent $8 million, we are not 
going to go spend another $10 million because it doesn't appear 
that what we have been projecting fits in what the component is 
going to need?
    Dr. O'Toole. Yeah. You certainly aim to do that in all 
well-managed R&D projects.
    Mr. Lungren. Right. Is there anything about Apex that makes 
it different than what has happened before?
    Dr. O'Toole. Yes. You would have a--well, Apex and the 
portfolio review, okay.
    Mr. Lungren. Okay.
    Dr. O'Toole. We are aiming to have, you know, clear process 
controls on what projects we move forward on. But let me point 
out that the testing that OHA is doing is of the same ilk. They 
are doing now, testing to see if these technologies perform 
according to their requirements. So though from one 
perspective, which I certainly understand, it looks like S&T 
has spent a lot of money on a technology that apparently 
failed, OHA is trying to responsibly test these technologies 
against each other before it makes an even bigger investment in 
procuring the systems and putting them in the field.
    Mr. Lungren. Mr. Maurer, would you have any comments on 
that?
    Mr. Maurer. Yeah, absolutely. I think as a general 
proposition, we have testified and reported in the past on 
problems that DHS has had in prior programs where they hadn't 
adequately tested technology before making big multibillion-
dollar decisions on what to buy. So from that perspective, it 
is a very good idea, indeed, to make sure things are properly 
tested before you move too far down the road on the acquisition 
and procurement side of the house.
    Mr. Lungren. What about the connection between S&T and the 
component parts and the coordination earlier on, so that 
maybe--and again hypothetically----
    Mr. Maurer. Sure. Sure.
    Mr. Lungren [continuing]. Maybe before you continue to go 
down the spending path, you realize that the ultimate decision-
maker in terms of the component might be setting up a criteria 
that would make it less likely that that which you have been 
putting your money in would qualify for?
    Mr. Maurer. As a general proposition, absolutely. You want 
to have as close collaboration as you can get between the folks 
that are developing the technology and the people that are 
actually going to be using it.
    Mr. Lungren. Are you seeing improvement in that in S&T?
    Mr. Maurer. That is part of our on-going work. That is 
certainly something we can report out on next year. We are 
encouraged by our discussions with S&T at this point, and the 
things that they have talked about. But as you know, part of 
what GAO does is, we have heard sort of the first line of 
arguments, the discussions with the Under Secretary and her 
staff. It sounds very promising. But as part of our work, we 
are going to be verifying. We are going to see if that is what 
is actually taking place. So stay tuned on that front.
    Mr. Lungren. Trust but verify.
    Mr. Maurer. Yeah.
    Mr. Lungren. All right. I believe that will conclude our 
hearing. I want to thank both of you for being here. I want to 
thank both of you for the work that you are doing and continue 
to do. Thank you for your valuable testimony, and the Members 
for their participation.
    The Members of the committee may have some additional 
questions for the witnesses. We would ask you, if you receive 
them, to respond to us in a timely fashion in writing. The 
hearing record will be held open for 10 days.
    This subcommittee stands adjourned.
    [Whereupon, at 11:06 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

       Questions for Tara O'Toole From Honorable Yvette D. Clarke

    Question 1a. Dr. O'Toole, in the fiscal year 2011 and fiscal year 
2012 budgets, the administration proposed transferring the 
Transformational R&D program from the Domestic Nuclear Detection Office 
(DNDO) to the S&T Directorate, explaining that this move will further 
consolidate R&D across the Department. You have testified in other 
hearings that moving this program to the S&T Directorate would reduce 
duplicative efforts in program management and ``create a better 
environment for R&D coordination in support of the DHS mission.'' In 
contrast, DNDO Director Warren Stern testified that the decision had 
``pluses and minuses.'' While the House-passed appropriations act 
rejects this transfer, the Senate appropriations act supports it. Now, 
the Department states that it has ``reconsidered'' the proposed 
transfer and prefers to keep the Transformational R&D program within 
DNDO. I have a list of questions that I will probably follow up on 
after the hearing, but initially:
    What is the Department's current position regarding the requested 
transfer?
    Answer. Response was not received at the time of publication.
    Question 1b. Are all DHS components in agreement regarding this 
transfer?
    Answer. Response was not received at the time of publication.
    Question 1c. What tangible, quantifiable benefits would 
consolidating the Transformational R&D program from DNDO to the S&T 
Directorate have?
    Answer. Response was not received at the time of publication.
    Question 1d. What are the potential negatives?
    Answer. Response was not received at the time of publication.
    Question 1e. What additional documentation will the administration 
be sending to Congress regarding its position and fiscal year 2012 
appropriations?
    Answer. Response was not received at the time of publication.
    Question 1f. Why should Congress approve the administration's 
request?
    Answer. Response was not received at the time of publication.
    Question 2. In your planning for fiscal year 2012, which areas will 
your investment in basic research yield the greatest results? How will 
you prioritize basic research with the proposed sharply reduced R&D 
budget?
    Answer. Response was not received at the time of publication.
    Question 3. Dr. O'Toole: Does S&T have the capability to perform 
rapid business and technical reviews to screen unsolicited homeland 
security technology proposals submitted to the Secretary? If not, is 
this a function that you believe S&T would be able to do if authorized?
    Answer. Response was not received at the time of publication.
    Question 4. Dr. O'Toole, many of us believe that S&T struggles to 
work with Department components because DHS hasn't established clear 
guidelines and requirements for funding research. Most say, the 
Integrated Product Team (IPT) process is a good way of bringing 
components to the table, but it's an extremely informal mechanism to 
hand out millions of dollars in research. Please explain any steps you 
have taken to make sure basic and applied homeland security research is 
identified, prioritized, funded, and evaluated by S&T.
    Answer. Response was not received at the time of publication.

       Questions for Tara O'Toole From Honorable Laura Richardson

    Question 1a. The DHS Science and Technology Directorate is 
responsible for developing technologies for other DHS components' 
programs and is specifically tasked by the Homeland Security Act of 
2002 to perform testing and evaluation of anti-terrorism technology. An 
example of a DHS component program is the Office of Health Affairs 
(OHA), BioWatch Generation-3 system that is being developed to detect 
the presence of airborne biological pathogens. S&T spent tens of 
millions of dollars on the development, validation, and transition of a 
next-generation assay technology for OHA's BioWatch Generation-3 
program. Under Phase I of the Gen 3 program the S&T technology was 
rejected by OHA claiming the technology did not meet system testing 
requirements. In August a draft Request for Proposals for Phase II was 
published and involves full rate production of as many as 2,500 units. 
Dr. O'Toole, as one of the Federal Government's top experts on the 
prevention and effects of bio-terrorism, I would like to understand 
exactly how involved you were, personally, in the evaluation of 
BioWatch Gen 3, Phase 1 technology tests.
    Did you concur with the decision to stop testing in Phase I?
    Answer. Response was not received at the time of publication.
    Question 1b. To what extent have you been engaged in the 
anticipated RFP for BioWatch Gen 3, Phase II thus far?
    Answer. Response was not received at the time of publication.
    Question 1c. Does the Secretary of DHS support you and/or your 
office having a formal and substantial coordinating role with OHA on 
Phase II to ensure the testing and evaluation of the Gen 3 technology 
is validated by scientists capable of interpreting complex data on this 
biothreat detection threat technology?
    Answer. Response was not received at the time of publication.
    Question 1d. In previous testimony before the House Appropriations 
Committee in February 2010, you said that a company S&T funded to 
develop an autonomous bio-detection sensor for Biowatch Gen 3 was a 
real ``success story'' for how S&T supports industry, including small 
businesses, in bringing new technologies to the homeland security 
mission. It is my understanding that this technology was tested along 
with one other technology by the Office of Health Affairs and in the 
middle of the tests OHA stopped testing the S&T-funded detector but 
kept paying for testing for technology of the other company. How can 
industry, be it a small business or a large company, be persuaded to 
develop new technologies if they are not permitted to complete the 
testing phase?
    Answer. Response was not received at the time of publication.
    Question 1e. Do you have an opinion regarding if it is wise to 
award to a single supplier when the threats are still evolving and the 
complex instruments to detect them are still in development?
    Answer. Response was not received at the time of publication.

       Questions for Tara O'Toole From Chairman Daniel E. Lungren

                    PRIORITIZATION & PROGRAM REVIEW

    Question 1. Dr. O'Toole's testimony indicated that she is reducing 
the number of projects that are funded, instilling annual reviews of 
on-going work, and funding each project through to use in the field. 
She also indicated that S&T is starting to see this effort bear fruit.
    What percentage of S&T's R&D efforts have resulted in deployment of 
a new, improved technology?
    Answer. Response was not received at the time of publication.
    Question 2. Are the Apex projects superseding the IPT process in 
serving as the major mechanism for obtaining and prioritizing the needs 
of DHS operational components?
    Answer. Response was not received at the time of publication.
    Question 3. Considering the Apex projects are one-on-one efforts 
between S&T and another component or end-user, what mechanism exists to 
prioritize R&D across disciplines (e.g., who decides and how is it 
decided whether a border security project is higher or lower priority 
than an aviation security project?), as well as to find synergies 
across the needs of the components to get more bang for the buck?
    Answer. Response was not received at the time of publication.
    Question 4. What is the status of plans to replace or improve the 
IPT process? What improvements have been made or plan to be made? What 
funding lines (e.g. HSARPA R&D, Centers of Excellence, etc.) are under 
the purview of the IPT process?
    Answer. Response was not received at the time of publication.
    Question 5. How does S&T track or measure whether its R&D results 
are meeting homeland security objectives?
    Answer. Response was not received at the time of publication.
    Question 6a. The S&T Directorate has established a portfolio review 
process that it uses to assess the impact and feasibility of its R&D 
activities.
    Why does the S&T Directorate not employ a more traditional peer 
review process using other scientists to judge the scientific merit of 
proposed research?
    Answer. Response was not received at the time of publication.
    Question 6b. How are the views of customers, such as first 
responders and DHS operational components, incorporated in the 
portfolio review process?
    Answer. Response was not received at the time of publication.
    Question 7a. To what extent do the other components of DHS use the 
HSSAI and HSSEDI and is that work funded by S&T or the component?
    Do they primarily support the activities of the S&T Directorate or 
others?
    Answer. Response was not received at the time of publication.
    Question 7b. How do these FFRDCs affect the S&T Directorate's 
activities, such as its prioritization of R&D activities?
    Answer. Response was not received at the time of publication.
    Question 8. How is S&T improving the performance of its University 
Centers of Excellence and their alignment with homeland security needs?
    Answer. Response was not received at the time of publication.

                            R&D COORDINATION

    Question 9a. What actions is S&T undertaking to coordinate R&D 
among its peers within the Department?
    How does this coordination manifest itself?
    Answer. Response was not received at the time of publication.
    Question 9b. What written documents support these coordinative 
efforts?
    Answer. Response was not received at the time of publication.
    Question 9c. How is S&T institutionalizing this coordination so 
that it can continue into future years?
    Answer. Response was not received at the time of publication.
    Question 10. Please describe how S&T coordinates its R&D agenda 
with those of other departments to ensure that unnecessary duplication 
of effort is avoided and gaps do not exist between the efforts of the 
various homeland security R&D conducting agencies?
    Answer. Response was not received at the time of publication.
   balance between s&t's missions--r&d, t&e, and acquisition support
    Question 11a. Dr. O'Toole has stated that S&T is focused on getting 
technologies out within 18 months. Who is looking farther out in time 
to ensure DHS will have the ability to address adaptive adversaries?
    Are there other entities S&T is relying on to invest in long-term 
R&D or does this present a gap?
    Answer. Response was not received at the time of publication.
    Question 11b. If S&T maintains some core capability to address 
emerging threats, what proportion of S&T's budget is dedicated to this 
effort as opposed to focusing on current threats?
    Answer. Response was not received at the time of publication.
    Question 12a. The focus of the Homeland Security Advanced Research 
Projects Agency (HSARPA) has shifted several times since its creation. 
Currently HSARPA contains all of the technical divisions and receives 
the bulk of S&T's funding.
    What is the proper role for HSARPA, i.e., should it focus on 
prototyping and near-term technology development, high-risk/high-reward 
R&D, or some other role?
    Answer. Response was not received at the time of publication.
    Question 12b. What proportion of S&T's resources should be devoted 
to HSARPA in future years?
    Answer. Response was not received at the time of publication.
    Question 12c. If HSARPA invests in high-risk, high-reward projects, 
what proportion of funding do you expect to be dedicated to this effort 
and what is the optimal success rate or tolerable failure rate to 
ensure that sufficiently challenging projects are undertaken?
    Answer. Response was not received at the time of publication.
    Question 13a. Currently, the S&T Directorate provides oversight of 
testing and evaluation (T&E) activities conducted by other DHS 
entities. Other agencies, such as the Department of Defense, have 
independent testing and evaluation entities.
    How would establishing an independent testing and evaluation entity 
within DHS, outside of S&T, change the current state of testing and 
evaluation?
    Answer. Response was not received at the time of publication.
    Question 13b. How does S&T in its current form ensure there are no 
conflicts of interest since it has responsibility as both the developer 
of technology and the test and evaluation authority?
    Answer. Response was not received at the time of publication.
    Question 13c. What additional authorities does S&T require?
    Answer. Response was not received at the time of publication.
    Question 14. When will all major acquisitions be fully compliant 
with S&T's T&E policies?
    Answer. Response was not received at the time of publication.
    Question 15a. Please describe how S&T views the roles of the DOE 
National laboratories versus S&T's other FFRDCs versus the private 
sector.
    What factors determine whether S&T expends funds through a National 
lab, other FFRDC, or in the private sector?
    Answer. Response was not received at the time of publication.
    Question 15b. What is the appropriate balance for S&T between 
funding work in Government laboratories versus open competition in the 
private sector?
    Answer. Response was not received at the time of publication.

                          TECHNOLOGY FORAGING

    Question 16. What is S&T's approach to ``technology foraging'' and 
how does it differ from S&T's normal way of doing business such as 
market research, Requests for Information, reading technical journals, 
attending scientific conferences, and conducting internet searches?
    Answer. Response was not received at the time of publication.
    Question 17. Is there dedicated funding for the technology foraging 
effort? In what budget line item does it appear? Will external 
contractors be used?
    Answer. Response was not received at the time of publication.
    Question 18. How formal is the technology foraging process within 
S&T? Is S&T incorporating technology foraging into all new program 
starts and does S&T plan to incorporate technology foraging as part of 
the acquisition support S&T provides to the components?
    Answer. Response was not received at the time of publication.
  the national biodefense and analysis countermeasures center (nbacc)
    Question 19. Is the NBACC fully up and running? If not, why not?
    Answer. Response was not received at the time of publication.
    Question 20. The NBACC is maintained at about $30 million per year. 
However, we understand there is currently unused space at the lab. Can 
the laboratory space that is complete but vacant be leased to other 
Federal entities that may be looking for upgraded facilities?
    Answer. Response was not received at the time of publication.
    Question 21a. This committee has learned that severe corrosion of 
the pipes in several areas of the laboratory was discovered, in places 
where the pipes had never even been used.
    Can you please explain how this could have happened in a brand-new, 
unused laboratory?
    Answer. Response was not received at the time of publication.
    Question 21b. Please provide the precise cost of remediation and 
how far back, in terms of time until full operational capability, these 
problems have set the lab.
    Answer. Response was not received at the time of publication.
    Question 22a. I understand that approximately $76,000 is spent 
annually on casework at the NBFAC, but annual costs to maintain the 
capability to do that casework total about $3.1 million, not including 
overhead.
    Please provide a detailed breakdown of the activities associated 
with the costs to maintain the casework capability.
    Answer. Response was not received at the time of publication.
    Question 22b. What results have been generated by the NBFAC that 
have enabled cases to be tried successfully in a court of law?
    Answer. Response was not received at the time of publication.
    Question 23. Is the NBACC leveraging historical knowledge and 
understanding of biothreat agents that exists within the Department of 
Defense and U.S. allies, such as the United Kingdom, to the maximum 
extent possible, including the threat from dual agents?
    How is S&T facilitating NBACC's ability to access such information? 
(Submit classified information as necessary to the committee under 
separate cover.)
    Answer. Response was not received at the time of publication.

       Questions for David C. Maurer From Chairman Peter T. King

    Question 1a. The S&T Directorate provides oversight of testing and 
evaluation (T&E) activities conducted in other DHS entities. Other 
agencies, such as the Department of Defense (DOD), have independent 
testing and evaluation entities.
    Do you think it would be beneficial for DHS to similarly have an 
independent OT&E authority outside of S&T?
    Question 1b. Could there be potential conflicts because S&T is 
currently both the developer and the T&E authority?
    Question 1c. How would establishing an independent testing and 
evaluation entity within DHS change the current state of testing and 
evaluation?
    Answer. We believe it is necessary for DHS's T&E oversight 
authority to be independent of the programs it oversees to ensure that 
DHS has non-biased information when making decisions about acquiring 
new technologies. We reported in June 2011 that the Director of 
Operational Test and Evaluation within S&T's Test & Evaluation and 
Standards Division (TES) oversees T&E of components' acquisition 
programs to ensure that they meet the requirements of DHS's T&E 
directive.\1\ As a separate office within S&T, we reported that TES is 
independent of the component acquisition program management offices 
that it oversees and is separate from the offices within S&T that 
conduct R&D. We reported that TES met some of its oversight 
requirements for T&E of acquisition programs we reviewed, but we 
recommended that S&T better document its review and approval of 
component documentation to ensure that the requirements of the DHS T&E 
directive are met. S&T agreed and reported that it has since developed 
internal procedures to ensure that their review and approvals are 
documented. We did identify one case in which TES was serving as the 
operational test agent for a DHS program--the Advanced Spectroscopic 
Portal--and, as a result, was not in a position to independently assess 
the results of operational testing as required by the T&E directive. We 
recommended that DHS arrange for an independent assessment of this 
program's test results. DHS agreed and stated that it has since 
identified another entity to serve as the test agent instead of TES.
---------------------------------------------------------------------------
    \1\ GAO, DHS Science and Technology: Additional Steps Needed to 
Ensure Test and Evaluation Requirements Are Met,  GAO-11-596 
(Washington, DC: June 15, 2011).
---------------------------------------------------------------------------
    Our work did not specifically assess where the T&E oversight 
function should be placed within DHS and did not compare DHS's 
structure with that of DOD. However, the purpose and organization of 
DOD T&E activities underscores the importance of independent T&E 
efforts. We have reported that developmental testers help reduce 
program risk by evaluating performance at progressively higher levels 
of component and subsystem levels, thus allowing program officials to 
identify problems early in the acquisition process.\2\ Within DOD, the 
operational testing organization provides information regarding the 
operational effectiveness and suitability of weapon systems and can 
assist in managing program risk. DOD developmental testing and 
operational testing activities were under one organization--the 
Director of Test and Evaluation--prior to 1983. In 1983, Federal law 
established the position of the Director, Operational Test and 
Evaluation, who is appointed by the President and confirmed by the 
Senate. The Director is required by law to submit to the Secretary of 
Defense and the Congress annual reports summarizing DOD's operational 
test and evaluation activities.\3\ In 2009, the developmental testing 
organization began reporting to the Under Secretary of Defense for 
Acquisition, Technology, and Logistics through the Director, Defense 
Research and Engineering.
---------------------------------------------------------------------------
    \2\ GAO, Defense Acquisitions: DOD Needs to Develop Performance 
Criteria to Gauge Impact of Reform Act Changes and Address Workforce 
Issues, GAO-10-774 (Washington, DC: July 29, 2010).
    \3\ 10 U.S.C.  139.
---------------------------------------------------------------------------
    Question 2a. GAO's prior work in 1995 on DOE National Laboratories 
showed the labs did not have clearly-defined missions focused on 
accomplishing DOE's changing objectives and National priorities.
    Given S&T's changing focus today, how do you think S&T could go 
about creating a tighter linkage between the labs and S&T's mission and 
goals to maximize the labs as a resource?
    Question 2b. Do you have any thoughts on how a potential 
consolidation of DOE's National labs that the recent DOE IG report 
suggested would affect S&T and how S&T could go about ensuring homeland 
security needs are factored into any decisions made by DOE?
    Answer. We reported on DHS's use of the DOE National Laboratories 
for R&D purposes in May 2004--1 year after DHS and S&T had begun 
operations.\4\ In that report, we recommended that S&T develop and 
better communicate to DOE's laboratories and other potential 
contributors to homeland security R&D efforts criteria for distributing 
annual project funding and for making long-term investments in 
laboratory capabilities for homeland security R&D. We also recommended 
that DHS develop specific guidelines that detail the circumstances 
under which DOE laboratories and other Federal R&D programs would 
compete for contracts with private sector and academic entities. We are 
currently reviewing DHS and S&T's processes for prioritizing, 
coordinating, and measuring the results of its R&D efforts for the 
Senate Committee on Homeland Security and Governmental Affairs and we 
will report on our results next year. While we are not focusing 
specifically on S&T's use of National labs, we will assess how S&T 
prioritizes its R&D activities, how it selects projects, and what 
entities conduct R&D.
---------------------------------------------------------------------------
    \4\ GAO, Homeland Security: DHS Needs a Strategy to Use DOE's 
Laboratories for Research on Nuclear, Biological, and Chemical 
Detection and Response Technologies, GAO-04-653 (Washington, DC: May 
24, 2004).
---------------------------------------------------------------------------
    The findings of DOE's Office of Inspector General in its recent 
report on management challenges in the Department of Energy are 
generally consistent with our prior work.\5\ For example, the DOE IG 
report questioned whether the laboratories' missions are clear, well-
understood, and properly coordinated and whether the laboratory complex 
was appropriately sized. This is consistent with our 1995 report that 
found that DOE's National laboratories did not have clearly-defined 
missions focused on accomplishing DOE's changing objectives and 
National priorities.\6\ This inhibited cooperation across DOE programs 
and hindered DOE's ability to use the laboratories to meet Departmental 
missions. In addition, DOE's IG raised doubts about whether the 
significant proportion of scarce science resources that are being 
diverted to administrative, overhead, and indirect costs for each 
laboratory are sustainable in the current budget environment. This 
complements findings from two of our reports. In September 2005, we 
reported that it is difficult to compare indirect costs across 
laboratories because laboratory contractors define indirect costs 
differently. In June 2010, we found that the National Nuclear Security 
Administration (NNSA) could not accurately identify the total costs to 
operate and maintain facilities and infrastructure for three National 
laboratories because of differences in sites' cost accounting 
practices.\7\
---------------------------------------------------------------------------
    \5\ DOE Office of Inspector General, Special Report: Management 
Challenges at the Department of Energy, DOE/IG-0858 (Washington, DC: 
Nov. 10, 2011).
    \6\ GAO, Department of Energy: National Laboratories Need Clearer 
Missions and Better Management, GAO/RCED-95-10 (Washington, DC: Jan. 
27, 1995).
    \7\ GAO, Department of Energy: Additional Opportunities Exist for 
Reducing Laboratory Contractors' Support Costs, GAO-05-897 (Washington, 
DC: Sept. 9, 2005) and GAO, Nuclear Weapons: Actions Needed to Identify 
Total Costs of Weapons Complex Infrastructure and Research and 
Production Capabilities, GAO-10-582 (Washington, DC: June 21, 2010).
---------------------------------------------------------------------------
    In any consolidation of the laboratories, the research requirements 
of all of DOE's customers would need to be considered in any decision-
making process. This is particularly important for the DHS-directed 
work at the DOE National laboratories because, under a 2003 memorandum 
of agreement between DHS and DOE, research for DHS is given the same 
priority at the DOE National laboratories as DOE-directed research. 
However, in 1998 we reported that the laboratories did not function as 
part of an integrated National research and development system. 
Therefore, an independent panel, as recommended by DOE's IG, that 
would, among other things, comprehensively examine alternatives for 
realigning DOE's laboratory complex, may be a useful step to better 
defining overall Governmental research objectives. This may also help 
in developing performance measures to assist the National laboratories 
to accomplish the broad array of research requirements across the 
Federal Government.
    Question 3. Given all of S&T's recent changes, including in its 
organizational and management practices and the shifting scope of its 
mission, do you believe S&T would benefit from updating its last 5-year 
R&D plan (fiscal year 2008-2013) and if so, please explain some of the 
benefits.
    Answer. We believe that strategic planning is important to help 
ensure that an agency's efforts and resources are aligned with their 
mission and goals. As I noted in my testimony, we reported in May 2004 
that DHS did not have a strategic plan to guide its R&D efforts and 
recommended that it complete such a plan and ensure that it was 
integrated with homeland security R&D conducted by other Federal 
agencies.\8\ DHS agreed with our recommendation and while S&T developed 
a 5-year R&D plan in 2008 to guide its efforts and is currently 
finalizing a new strategic plan to align its own R&D investments and 
goals, DHS has not yet completed a strategic plan to align all R&D 
efforts across the Department. Moreover, as noted in my testimony, our 
prior work on Federal R&D efforts could provide valuable insights into 
how DHS could develop comprehensive strategies. For example, we 
reported in June 2009 that DOE could not determine the effectiveness of 
its laboratories' technology transfer efforts because it has not yet 
defined its overarching strategic goals for technology transfer and 
lacks reliable performance data.\9\ We recommended that DOE explicitly 
articulate Department-wide priorities for technology transfer efforts 
and develop clear goals, objectives, and performance measures in line 
with identified priorities. We have also reported that leading private 
companies have strong strategic planning practices to identify the 
right technologies to pursue and prioritize resources. Strategic 
planning is an important early step in a company's ability to 
eventually deliver the highest-priority technologies to various product 
lines.\10\ The leading private companies we visited underwent strategic 
planning at least annually, and this process enabled corporate 
management to conduct portfolio analysis, determine which projects 
appeared to be relevant and feasible, and identify new thrust areas as 
new ideas come to light. Projects that were no longer relevant or 
feasible were eventually terminated. This type of strategic planning 
was critical to ensuring that the right technologies were ultimately 
transitioned to the right product line in an economical and timely way.
---------------------------------------------------------------------------
    \8\ GAO-04-653.
    \9\ GAO, Technology Transfer: Clearer Priorities and Greater Use of 
Innovative Approaches Could Increase the Effectiveness of Technology 
Transfer at Department of Energy Laboratories, GAO-09-548 (Washington, 
DC: June 16, 2009).
    \10\ GAO, Best Practices: Stronger Practices Needed to Improve DOD 
Technology Transition Processes, GAO-06-883 (Washington, DC: Sept. 14, 
2006).
---------------------------------------------------------------------------
    We are currently reviewing DHS and S&T's processes for 
prioritizing, coordinating, and measuring the results of its R&D 
efforts for the Senate Committee on Homeland Security and Governmental 
Affairs and we will report on our results next year. As part of this 
work, we will review the 5-year R&D plan that S&T developed in 2008 and 
assess DHS and S&T's efforts to develop an R&D strategic plan for the 
department.
    Question 4. Do you see a role for S&T beyond being the T&E 
authority in the Department's acquisition of technology? For one, 
should S&T be conducting Technology Readiness Assessments to ensure a 
technology is sufficiently mature before proceeding through major 
acquisition gates?
    Answer. We believe that the technical knowledge and expertise 
within S&T should be leveraged to the greatest extent possible to help 
DHS in the development and acquisition of new technologies to ensure 
that they work most effectively when implemented. S&T recently 
reorganized and established new strategic goals, one of which is to 
leverage its expertise to assist DHS components' efforts to establish 
operational requirements, and select and acquire needed technologies. 
As part of this reorganization, S&T established the Acquisition Support 
and Operations Analysis Group to help provide this assistance to 
components. In Under Secretary O'Toole's testimony, she noted that S&T 
has now been incorporated into DHS's new integrated investment life 
cycle and will be working on the ``front end'' of the acquisition 
process assisting in the development of program requirements, which 
greatly improves the odds of a successful transition at the end of the 
program. She also noted that S&T will provide systems engineering 
support throughout the ``middle'' of the investment life cycle to 
assist components with items such as risk management and developing 
concepts of operation. Additionally, S&T has responsibility for 
conducting oversight of T&E requirements on the ``back end'' of the 
acquisition process, which helps to ensure that technologies have been 
appropriately tested prior to acquiring and deploying them.
    Our work has not specifically assessed S&T's role in conducting 
technology readiness assessments (TRA) and has not compared DHS with 
DOD. However, we can provide some information about how DOD conducts 
TRAs that may be useful. In DOD, the program manager, in conjunction 
with an independent team of subject matter experts, are responsible for 
conducting a TRA, and the Assistant Secretary of Defense for Research 
and Engineering provides the Milestone Decision Authority, an 
independent assessment and review concerning whether the technology in 
the program has been demonstrated in a relevant environment. Although 
we have not evaluated the effectiveness of this process, it appears to 
be working well. We have recently reported that DOD weapons acquisition 
programs are now beginning with much higher levels of technology 
readiness than when we first started reporting this information in 
2003.\11\
---------------------------------------------------------------------------
    \11\ GAO, Defense Acquisitions: Assessments of Selected Weapon 
Programs, GAO-10-388SP (Washington, DC: March 30, 2010).
---------------------------------------------------------------------------
    While the recent changes at S&T seem promising, it is too soon to 
assess what impact S&T's reorganization and focus on assisting 
components will have until DHS programs have been subjected to these 
new processes over time. The extent to which DHS leverages expertise 
within S&T will determine S&T's impact on the development and 
acquisition of new technologies across the Department. We are currently 
reviewing DHS and S&T's processes for prioritizing, coordinating, and 
measuring the results of its R&D efforts for the Senate Committee on 
Homeland Security and Governmental Affairs and we will report on our 
results next year. As part of this review, we will review S&T's recent 
reorganization, its focus on providing technical assistance to 
components, and the associated impact on DHS components. We are also 
currently assessing DHS's acquisition management activities for the 
same committee and will report on our results next year as well.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
